<html>
<title> - DEPARTMENT OF ENERGY SCIENCE AND TECHNOLOGY PRIORITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      DEPARTMENT OF ENERGY SCIENCE 
                       AND TECHNOLOGY PRIORITIES 

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 18, 2013

                               __________

                           Serial No. 113-36

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-725 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY



                            C O N T E N T S

                         Tuesday, June 18, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    12

                               Witnesses:

The Honorable Ernest Moniz, Secretary, U.S. Department of Energy
    Oral Statement...............................................    13
    Written Statement............................................    17

Discussion.......................................................    27

             Appendix I: Answers to Post-Hearing Questions

The Honorable Ernest Moniz, Secretary, U.S. Department of Energy.    68


                      DEPARTMENT OF ENERGY SCIENCE
                       AND TECHNOLOGY PRIORITIES

                              ----------                              


                         TUESDAY, JUNE 18, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to other business, at 10:18 
a.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Lamar Smith [Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will reconvene. Welcome to today's hearing entitled 
``Department of Energy Science and Technology Priorities.'' I 
will recognize myself for an opening statement and then the 
Ranking Member.
    To many, the Department of Energy is typically not regarded 
as a ``science agency,'' but from its origins with the 
Manhattan Project to its current programs and mission, science 
has always served as DOE's foundation.
    Approximately $8.5 billion, or 1/3 of the Department's 
budget, is focused on civilian science and technology 
activities that fall under this Committee's jurisdiction. 
Accordingly, I want to thank our witness, Dr. Ernie Moniz, for 
joining us today. His presence here continues our tradition of 
hearing from the DOE Secretary on a regular basis.
    Dr. Moniz has a deep knowledge of energy policy, 
particularly regarding the scientific and technical issues that 
are the focus of this Committee.
    Dr. Moniz's tenure begins at an extraordinary time in our 
Nation's energy history. We are now just a few years into an 
energy revolution driven by hydraulic fracturing that has 
enabled dramatic increases in oil and natural gas production.
    The notion of true American energy independence, long 
dismissed as unrealistic, is now attainable, perhaps even by 
the end of this decade. These developments will greatly benefit 
not only our economy but also geopolitics and our national 
security.
    The shale boom has been accompanied by important energy 
policy debates. These include whether the Federal Government 
should regulate fracking, whether the Keystone XL pipeline 
should be built, and how best to handle liquefied natural gas 
exports. These issues are all of critical importance and all 
connect to the scientific and technical jurisdiction of this 
Committee.
    Also of major importance is how we prioritize Federal 
efforts to advance development of alternative forms of energy. 
In an era of budget constraints, we need to set priorities.
    I believe that the best approach is to place a higher 
priority on fundamental research that will enable new energy 
technologies to become more cost-effective. This makes sense 
not only from a fiscal perspective but also from a global 
perspective. It is widely agreed that any effective solution to 
climate concerns must be global in nature. And while the United 
States has reduced carbon emissions in recent years, developing 
countries have shown little desire for voluntarily switching to 
more expensive forms of alternative energy.
    For example, China and India are expected to build a 
combined 200 coal plants in the next three years. Global coal 
use is expected to increase 50 percent by 2035, which will 
dramatically increase carbon dioxide emissions. This won't 
change unless alternative forms of energy become more cost-
effective. So we should shift from costly subsidies to research 
and market-driven technological solutions that will be used 
around the world. To me, this is the only practical, long-term 
solution.
    That concludes my opening statement, and the Ranking 
Member, Ms. Johnson, is recognized for hers.
    [The prepared statement of Mr. Smith follows:]
             Prepared Statement of Chairman Lamar S. Smith

    To many, the Department of Energy (DOE) is typically not regarded 
as a ``science agency.'' But from its origins with the Manhattan 
Project to its current programs and mission, science has always served 
as DOE's foundation.
    Approximately $8.5 billion, or one-third of the Department's 
budget, is focused on civilian science and technology activities that 
fall under this Committee's jurisdiction.
    Accordingly, I want to thank our witness, Dr. Ernie Moniz, for 
joining us today. His presence here continues our tradition of hearing 
from the DOE Secretary on a regular basis.
    Dr. Moniz has a deep knowledge of energy policy, particularly 
regarding the scientific and technical issues that are the focus of 
this Committee.
    Dr. Moniz's tenure begins at an extraordinary time in our nation's 
energy history. We are now just a few years into an energy revolution 
driven by hydraulic fracturing (fracking) that has enabled dramatic 
increases in oil and natural gas production.
    The notion of true American energy independence--long dismissed as 
unrealistic--is now attainable, perhaps even by the end of this decade. 
These developments will greatly benefit not only our economy but also 
geopolitics and our national security.
    The shale boom has been accompanied by important energy policy 
debates. These include whether the Federal government should regulate 
fracking, whether the Keystone XL Pipeline should be built and how best 
to handle liquefied natural gas exports.
    These issues are all of critical importance, and all connect to the 
scientific and technical jurisdiction of this Committee.
    Also of major importance is how we prioritize Federal efforts to 
advance development of alternative forms of energy.
    In an era of budget constraints, we need to set priorities.
    I believe a better approach is to place a higher priority on 
fundamental research that will enable new energy technologies to become 
more cost-effective. This makes sense not only from a fiscal 
perspective, but also from a global perspective.
    It is widely agreed that any effective solution to climate concerns 
must be global in nature. And while the U.S. has reduced carbon 
emissions in recent years, developing countries have shown little 
desire for voluntarily switching to more expensive forms of alternative 
energy.
    For example, China and India are expected to build a combined 200 
coal plants in the next three years. Global coal use is expected to 
increase 50 percent by 2035, which will dramatically increase carbon 
dioxide emissions.
    This won't change unless alternative forms of energy become more 
cost-effective.
    So, we should shift from costly subsidies to research and market-
driven technological solutions that will be used around the world. To 
me, this is the only practical long term solution.

    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
the hearing today.
    And I would like to welcome Secretary Moniz and express my 
appreciation for his willingness to serve the Nation again, as 
he has several times before.
    Secretary Moniz, you are obviously extraordinarily well-
qualified, and I believe that you are the right person to lead 
the Department of Energy at this critical time.
    Let me start by saying that, overall, I am pleased with the 
Department's budget request this year. If approved, the Office 
of Science, ARPA-E, and the Office of Electricity, and the 
Office of Energy Efficiency and Renewable Energy would all 
receive a much-needed boost to advance the development of clean 
energy technologies that will be vital to our national 
security, our economy, and our environment in the decades to 
come.
    It is worth reminding my colleagues here today that we have 
seen how government research can pay off when it comes to 
energy development. DOE-supported research was key to 
development of higher-efficiency gas turbines for coal plants, 
nuclear reactors developed at the Federal labs, and the 
directional drilling and hydraulic fracturing practices that 
have led to the shale gas boom of today. But we should remember 
that those achievements required decades of Federal investment, 
the overwhelming majority of which were focused on fossil and 
nuclear energy.
    I continue to support research to make today's technologies 
cleaner and more efficient, but I believe that it is time to 
level the playing field and introduce real competition to the 
markets. That is where the priorities set by this budget 
request come into play.
    We have to find the greatest value for our investment of 
the taxpayers' dollar, and today, it is the emerging energy 
technologies sectors that will most benefit from our 
government's support.
    I think it is also important to note that DOE's Office of 
Science is actually the largest supporter of basic research in 
the physical sciences in the country, and it operates more than 
30 national scientific user facilities whose applications go 
well beyond energy innovation. Our Nation's top researchers 
from industry, academia, and other Federal agencies use these 
facilities to examine everything from new materials that will 
better meet our military needs to new pharmaceuticals that will 
better treat disease to even examining the fundamental building 
blocks of the universe.
    I believe this stewardship of unique scientific research, 
including the Nation's major national user facilities is 
another important role that I hope the Department will continue 
to make one of its highest priorities.
    It is no secret that Congress' inability to date to come to 
an agreement on a sensible budget plan has led to some 
devastating cuts to many of these important programs with 
serious impacts on our Nation's future. I think this budget 
request is a step in the right direction, and I look forward to 
working with you, Mr. Secretary, and my colleagues across the 
aisle to provide you with the direction, the tools, and the 
resources that you need to get us back on track.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Chairman Smith for holding this hearing today. I would also like to 
welcome Secretary Moniz and express my appreciation for his willingness 
to serve the nation again, as he has many times before. Secretary 
Moniz, you are obviously extraordinarily well-qualified, and I believe 
you are the right person to lead the Department of Energy at this 
critical time.
    Let me start by saying that, overall, I am pleased with the 
Department's budget request this year. If approved, the Office of 
Science, ARPA-E, the Office of Electricity, and the Office of Energy 
Efficiency and Renewable Energy would all receive a much-needed boost 
to advance the development of clean energy technologies that will be 
vital to our national security, our economy, and our environment in the 
decades to come.
    It is worth reminding my colleagues here today that we have seen 
how government research can pay off when it comes to energy 
development. DOE-supported research was key to the development of high-
efficiency gas turbines for coal plants, nuclear reactors developed at 
federal labs, and the directional drilling and hydraulic fracturing 
practices that have led to the shale gas boom of today. But we should 
remember that those achievements required decades of federal 
investment, the overwhelming majority of which was focused on fossil 
and nuclear energy. I continue to support research to make today's 
technologies cleaner and more efficient, but I believe that it is time 
to level the playing field and introduce real competition to the 
markets. That is where the priorities set by this budget request come 
into play.
    We have to find the greatest value for our investment of the 
taxpayer dollar, and today it is the emerging energy technology sectors 
that can most benefit from government support.
    I think it is also important to note that DOE's Office of Science 
is actually the largest supporter of basic research in the physical 
sciences in the country, and it operates more than 30 national 
scientific user facilities whose applications go well beyond energy 
innovation. Our nation's top researchers from industry, academia, and 
other federal agencies use these facilities to examine everything from 
new materials that will better meet our military's needs, to new 
pharmaceuticals that will better treat disease, to even examining the 
fundamental building blocks of the universe. I believe that this 
stewardship of unique scientific research, including the nation's major 
national user facilities, is another important role that I hope the 
Department will continue to make one of its highest priorities.
    It's no secret that Congress's inability to date to come to an 
agreement on a sensible budget plan has led to some devastating cuts to 
many of these important programs, with serious impacts to our nation's 
future. I think this budget request is a step in the right direction, 
and I look forward to working with you, Secretary Moniz, and my 
colleagues across the aisle to provide you with the direction, the 
tools, and the resources you need to get us back on track.
    With that I yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson.
    Our only witness today is Hon. Ernest Moniz, Secretary of 
the Department of Energy. Prior to his appointment, Dr. Moniz 
was a Professor of Physics and Engineering Systems at the 
Massachusetts Institute of Technology where he was a faculty 
member since 1973.
    Previously, Dr. Moniz served as Under Secretary of the 
Department of Energy where he oversaw the Department's Science 
and Energy Programs. From 1995 to 1997 he served as Associate 
Director for Science in the Office of Science and Technology 
Policy in the Executive Office of the President.
    Dr. Moniz received a bachelor of science degree in physics 
from Boston College and a doctorate in theoretical physics from 
Stanford University. He brings both impressive academic 
credentials and practical skills to a very demanding job.
    Dr. Moniz, we welcome you today and look forward to your 
testimony.

            TESTIMONY OF THE HONORABLE ERNEST MONIZ,

              SECRETARY, U.S. DEPARTMENT OF ENERGY

    Secretary Moniz. Thank you, Mr. Chairman, Ranking Member 
Johnson, Members of the Committee. I appreciate the opportunity 
to appear before you today for my first time and in this 
incarnation and to lay out my vision for the Department of 
Energy path forward over the next few years. And I certainly 
look forward to working with this Committee during that time.
    I am pleased to be back at the Department. As noted, I 
served as Under Secretary during the Clinton Administration as 
well as at OSTP. At MIT, I would just add to the Chairman's 
description that I also served as head of the Department of 
Physics and, perhaps of direct relevance here, as Director of 
the Bates Linear Accelerator Center, which was, at that time, a 
Department of Energy user facility. So I have seen the 
Department from that end as well. More recently, I was the 
founding Director of the MIT Energy Initiative.
    So today, again, I will lay out a bit of my vision for how 
the Department can meet some of the pressing challenges before 
us and touch on some of the initiatives in the President's 
Fiscal Year 2014 budget request for the Department.
    Clearly, I will start by discussing the science programs, 
and I want to thank, again, both--actually both the Chairman 
and the Ranking Member for pointing out the critical role that 
Department of Energy plays in the science enterprise of this 
country and also how science and technology really is the 
thread that runs through all the diverse missions of the 
Department.
    The science programs are crucial to fostering scientific 
and technological breakthroughs, especially in the physical 
sciences. The Department provides the national science 
community with unique research opportunities at major 
facilities for nuclear and particle physics, for energy 
science, for materials research and discovery, for large-scale 
computation, and other disciplines. And the President is 
committed to making investments in R&D that will grow the 
economy and enable our country to remain competitive.
    A couple of weeks ago I made my first trip as Secretary to 
Oak Ridge National Laboratory where I saw Titan, then, the 
world's fastest supercomputer. I was told today that yesterday 
China has now fielded a machine that is now number one, and I 
might say this area of large-scale computation, modeling, and 
simulation, one in which the Department of Energy has helped 
this country in its leadership role for many, many decades, is 
fiercely competitive with China, the EU, Japan, others 
investing large resources, and, in fact, also of interest in 
China, a stated goal of training 1 million students in the use 
of high-performance computing for various applications.
    While at Oak Ridge, I also visited the Consortium for 
Advanced Simulation of Light Water Reactors along this theme of 
large-scale computation. This is the first of MIT--of MIT--of 
DOE's, excuse me, existing energy innovation hubs. I made that 
slip because MIT is a partner in that hub.
    In its first three years, CASL has already released 
software that simulates a virtual operating physical reactor. 
And the President's budget continues support for this and other 
hubs and proposes a new one in electricity systems following 
the recent awards to Argonne and Ames for batteries and energy-
critical materials respectively.
    The President's budget also continues support for DOE's 
Energy Frontier Research Centers run out of the Basic Energy 
Sciences office, and these are working to solve specific 
scientific problems that are barriers to clean energy 
technology development.
    The budget request also supports the continuation of DOE's 
three Bioenergy Research Centers, which are very successfully 
pursuing basic research underlying a range of high-risk, high-
return biological solutions for energy applications.
    Within science, nuclear and particle physics continue to 
shed light on fundamental properties of matter at the subatomic 
level. In the nuclear program, we have a robust program 
operating the Relativistic Heavy Ion Collider, continuing the 
major upgrade of Jefferson Lab in Virginia, and initiating a 
new facility at Michigan State.
    In particle physics, we clearly have to consider what is 
going to be our direction, particularly with Fermilab, our 
flagship facility, right now, pursuing the Intensity Frontier, 
and this will be an important development over the next three 
years, how we see the vector for high-energy physics.
    Let me turn, if I may, briefly, to energy technology and 
policy. As the Chairman noted, in the last four years since 
President Obama took office, the global energy landscape has 
undergone a profound change. The United States oil and gas 
production has increased each year, while oil imports have 
fallen to a 20-year low. At the same time, renewable 
electricity generation has doubled and should double again in 
the next several years, and carbon emissions have 
simultaneously fallen to the lowest level in the United States 
in nearly two decades.
    But even with the increase in domestic oil and gas 
production, high gasoline prices still impact American families 
and businesses every day and remind us that we are still too 
reliant on oil. The President has emphasized there is no silver 
bullet but we continue to pursue a multipronged approach in 
terms of efficient vehicles, alternative fuels, and vehicle 
electrification.
    Another important focus, one that I have emphasized quite 
strongly as well, is that on energy efficiency. The President's 
goal is to double American energy productivity by 2030, saving 
consumers and businesses money and increasing competitiveness. 
Efficiency really is the fifth fuel.
    And of course, we will continue our cutting-edge science 
and technology research R&D to accelerate the transition to a 
low-carbon economy through cost reduction as the principal goal 
of innovation.
    Given the time, I will just say a few words about moving 
forward with programs like ARPA-E, which I consider to be a 
critical part of this country's energy innovation system and 
also noting how it suggests that we continue to have an 
enormous amount of untapped innovation capacity that we should 
try to bring to bear.
    Finally, in discussing energy, I will note that I also 
served on President Obama's Council of Advisors on Science and 
Technology, PCAST. And PCAST, at the end of 2010, recommended a 
new process called the Quadrennial Energy Review for weaving 
together the many strands that must go into a coherent energy 
policy. This will require much stronger analytical capabilities 
which will be a focus for me in these years, and I look forward 
to working with others in the Administration, the Congress, 
industry, NGOs, and others to advance this new approach to 
Quadrennial Energy Review.
    In concluding, I would just say that in addition to these 
mission areas--and of course we also have the nuclear security 
and environmental remediation areas--but I want to say that 
improving the management and performance of the Department is 
one of my top priorities as Secretary. I intend to pursue this 
in at least four areas: better integrating science and energy 
programs; elevating the focus on management and performance as 
an enterprise-wide requirement; increasing the analytical 
capability, as I said, as an essential underpinning for energy 
technology and policy; and creating clear lines of authority 
and responsibility for security across the Department.
    So in summary, Mr. Chairman, the Department has significant 
responsibilities that bear on America's economic, energy, 
environmental, and nuclear security future, and I am fully 
committed to working with the Congress in search for solutions. 
I look forward to our discussion.
    [The prepared statement of Hon. Moniz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Secretary Moniz.
    Let me recognize myself for questions.
    And my first one goes to the loan guarantee programs. The 
Government Accounting Office says that there are eight new loan 
guarantee programs under consideration at a total cost of about 
$2 billion. Is that accurate, and if not, what is the right 
figure as far as the loan guarantee programs that might be 
announced, say, this year?
    Secretary Moniz. Well, I am not quite sure what that figure 
refers to specifically.
    Chairman Smith. Okay.
    Secretary Moniz. But there is the 1703 program, which I 
think is probably being referred to, the one that has a 
conditional agreement for a loan for the nuclear reactors in 
Georgia at about $8 billion, so that still remains to be seen 
where that goes. And there is consideration as authorized for 
developing a potential program in the fossil fuel area.
    Chairman Smith. Okay. And those are the only loan guarantee 
programs you are aware of that might be under consideration?
    Secretary Moniz. To my knowledge, that is what the--what 
are being considered. The other area where there is additional 
authority is in the Advanced Vehicle program, but currently, 
there is no----
    Chairman Smith. What about alternative forms of energy, 
wind, solar, and so forth?
    Secretary Moniz. Again, I will go back and check, Mr. 
Chairman, for sure, but what I am aware of right now that is 
active is the conditional loan on the nuclear reactors and 
considerations about a fossil program.
    Chairman Smith. Okay. No imminent announcements on any of 
these?
    Secretary Moniz. Well, I had better check that to be sure--
--
    Chairman Smith. Okay.
    Secretary Moniz. --but that is my knowledge of it.
    Chairman Smith. Okay. Fair enough. The other question 
relating to that is that will the loan guarantee programs put 
the interest of taxpayers ahead of the interest of others?
    Secretary Moniz. Absolutely. I believe the program has 
always striven to do that.
    Chairman Smith. Okay. So if the company fails, the 
taxpayers would be paid back first?
    Secretary Moniz. Well, yes, sir. I mean the overall 
judgment will be to protect taxpayer dollars.
    Chairman Smith. The reason I ask that was Solyndra, you had 
the situation that before bankruptcy was actually declared, the 
loan was restructured and the taxpayers were put second instead 
of first, but you don't envision that happening again?
    Secretary Moniz. We have no such plans for that----
    Chairman Smith. Okay.
    Secretary Moniz. --but I can guarantee always putting 
taxpayers' interests----
    Chairman Smith. Great. Thank you.
    Let me move on to the subject of climate change and ask you 
what percentage of climate change do you think is attributable 
to human activity and what percentage to other causes?
    Secretary Moniz. Well, sir, I wouldn't know how to put a 
percentage on it but I believe the science is clear that 
manmade activity----
    Chairman Smith. Right.
    Secretary Moniz. --is a major contributor to the global 
warming that we are seeing.
    Chairman Smith. Right. Assuming that, though, is there any 
way to estimate what percent? Is it over half, you know, 50 
percent, 75 percent, 90 percent is attributable to human 
activity or is that not----
    Secretary Moniz. Well, what I would say is that in my 
scientific view the--what we are seeing is consistent with 
being driven by manmade activities. Clearly, there are 
background variabilities----
    Chairman Smith. Would the natural cycles--you have solar 
influence and so forth----
    Secretary Moniz. Correct, but the--basically, my statement 
is based on the fact that if one simply looks at the amount of 
what one knows as one has known for over a century how CO<INF>2</INF> 
in particular drives global warming through the greenhouse 
effects, we know how much CO<INF>2</INF> we emit from 
combustion, and we know how much CO<INF>2</INF> is accumulating 
in the atmosphere, and we know that time trajectory of those--
--
    Chairman Smith. Right. But still no way to know what 
percentage is attributable to human activity?
    Secretary Moniz. Well, I don't know how to make a 
percentage, but again, I think there is no doubt in my mind 
that the anthropogenic causes are major----
    Chairman Smith. Okay.
    Secretary Moniz. --probably the major driver of climate 
change.
    Chairman Smith. Okay. Thank you. And then the last question 
is this--and this is asking you to speculate and be creative, I 
guess.
    Secretary Moniz. Uh-oh.
    Chairman Smith. And it is for this reason--suppose we were 
looking at possible breakthrough technologies that would reduce 
carbon emissions, and we were looking for breakthroughs that 
did not involve increase in taxes or subsidies. What are some 
possible breakthroughs that we might see in the next five to 
ten years that would allow us to reduce carbon emissions 
without raising taxes and without subsidies? Do you have any 
idea on that? I am thinking about batteries or maybe more 
efficient buildings, things like that, but any other ideas that 
you might have?
    Secretary Moniz. Well, certainly, in the area of efficiency 
I think there remains enormous opportunity, and buildings, as 
you have said, are a major focus area. Seventy percent of 
electricity goes into our buildings. On the supply side--well, 
in about ten years we hope to have the first small modular 
nuclear reactor deployed, which could be the beginning of an 
interesting new industry for us. Solar energy has come down 
enormously in cost, and I believe that within ten years we will 
be surprised at its level of deployment. And very critically, 
battery as energy storage, which you also mentioned, is 
critical. Costs have come down very dramatically.
    There remains a significant way to go to get what I would 
call mass-market vehicle technology there. But it has been 
tremendous progress. In fact, I just mentioned the Tesla as--
for example, has dropped its base cost by nearly a factor of 
two in about 4 years.
    Chairman Smith. Okay. Thank you, Secretary Moniz. And let 
me apologize to you. I am on another committee that is having 
an all-day markup that has already begun, so I am going to need 
to excuse myself. I hope to be back in about an hour. And Dana 
Rohrabacher, I think, is going to take the Chairmanship. And I 
will look forward to seeing you later.
    Secretary Moniz. Thank you, Mr. Chairman.
    Mr. Rohrabacher. [Presiding] I finally got it in my hands.
    Ms. Johnson. This is frightening.
    Mr. Rohrabacher. Well, even with that, you are recognized 
for your five minutes.
    Ms. Johnson. Thank you very much. This is a gentleman that 
I have served on this Committee with now in the 21st year, so I 
do know him pretty well.
    Secretary Moniz, I understand that in your previous job as 
Director of MIT Energy Initiative you played a major role in 
examining the impacts of energy development on water use and 
vice versa, so I am sure you already know that this is a 
significant issue for my State. And I appreciate your 
responsiveness to my recent letter to you on the subject.
    Can you briefly describe the Department's current 
activities to address the critical link between energy and 
water and are there further actions you plan to take in this 
area, now that you are the boss?
    Secretary Moniz. Thank you, Congresswoman.
    The energy-water nexus is clearly one of greatly increased 
attention, and rightly so, because this is a very, very 
challenging problem. In fact, it is often not recognized that 
approximately half of the United States' water withdrawals are 
just for thermal power plants alone. And, of course, water 
issues have become very prominent in hydrocarbon production.
    So at the Department we have a task force that has been put 
together on the--on energy and water. They have been developing 
ideas. There are some collaborations, for example, with EPA and 
DOI specifically on the water issues with hydrofracking. The 
issues of addressing lower water use, particularly as drought 
comes across much of our country, are critical.
    I have asked our task force to develop a draft program plan 
for this fall that would give us an idea what might be a new 
direction that we could then discuss with the Members and of 
course in the Administration to see how we might shape a 
program more forcefully aimed at energy and water.
    Ms. Johnson. Thank you.
    As one of the Nation's most respected physicists, can you 
briefly describe how greenhouse gas emissions trap heat in 
Earth's atmosphere?
    Secretary Moniz. Okay. I could use a blackboard then. But, 
no, I mean, quite briefly, the issue is that incoming sunlight, 
especially, let's say, in the visible range, obviously we see 
the sun, so that sunlight comes through to the earth; it is 
absorbed. It is then re-radiated as infrared and then certain 
molecules like carbon dioxide trap that infrared radiation and 
that creates the greenhouse effect which then leads to warming. 
And this has been--I might say this has been known since the 
nineteenth century.
    Ms. Johnson. What are the major risks to our Nation if we 
don't reduce our greenhouse gas emissions, and are there any 
increased risks if we delay action?
    Secretary Moniz. Well, certainly, I think, the risks of 
global warming are very, very considerable. Of course, this 
does--it is an issue in the end of I should--of global 
greenhouse gas emissions. With an increase and continued 
warming, we will--we are seeing of course already indicators 
such as the dramatic effects on sea ice, but also I think here 
in this country we are seeing statistically the expectations 
written down 20 years ago playing out such as droughts, 
wildfires, storm intensity increases. Again, one can never 
assign any specific event to the warming, but statistically, it 
seems to be there. So--and the problem is it is happening very 
rapidly compared to historical natural cycles.
    Also, I should have talked about sea level rise, which then 
couples with storms to have storm surges, the kind of thing 
that we saw with Sandy.
    Ms. Johnson. Thank you very much. Thank you, Mr. Chairman.
    Mr. Rohrabacher. And the Chair now recognizes me.
    First of all, welcome aboard.
    Secretary Moniz. Thank you.
    Mr. Rohrabacher. And I am sure we are going to enjoy our 
kibitzing, as I have enjoyed it with your predecessor as well.
    Let's--we are talking about global warming. Let me get this 
straight. You don't know what the natural production of 
CO<INF>2</INF> is compared to the human production? Is that 
what your answer to the Chairman was?
    Secretary Moniz. No, sir, I said to the--I know how much 
CO<INF>2</INF> we are producing----
    Mr. Rohrabacher. Yes.
    Secretary Moniz. --from anthropogenic causes.
    Mr. Rohrabacher. But you don't know the percentage of what 
is in the atmosphere is caused by human beings versus the 
natural production?
    Secretary Moniz. So the amount of CO<INF>2</INF> from 
anthropogenic sources actually significantly exceeds, in fact, 
the amount that is not remaining in the atmosphere, as the 
oceans reabsorb some of it. So actually one could argue that--I 
mean anthropogenic sources really is a very, very major driver.
    Mr. Rohrabacher. So the ocean doesn't absorb the CO<INF>2</INF> 
that is produced by man, but it does absorb what is produced by 
nature, and you don't know----
    Secretary Moniz. No, you can't----
    Mr. Rohrabacher. --how much is produced by nature?
    Secretary Moniz. No, I mean the CO<INF>2</INF> molecule is 
a CO<INF>2</INF> molecule----
    Mr. Rohrabacher. Correct.
    Secretary Moniz. --and there is a carbon cycle, and in that 
carbon cycle there is a net--at least today there is a net 
absorption in the oceans and in the land masses.
    Mr. Rohrabacher. Okay. I would appreciate if you could, 
when you go back and check--I mean it is surprising you don't 
have the answer on top of your head exactly what percentage of 
the CO<INF>2</INF> that we are talking about with greenhouse 
effect here, what percentage of CO<INF>2</INF> in the 
atmosphere is caused by human activity and what is caused by a 
natural activity?
    Secretary Moniz. Again, we know the overall fluxes 
because----
    Mr. Rohrabacher. But what is it?
    Secretary Moniz. --in the carbon cycle--I would have to go 
back and really get my numbers straight.
    Mr. Rohrabacher. Okay. All right.
    Secretary Moniz. But----
    Mr. Rohrabacher. Go back and get that.
    Secretary Moniz. The--okay.
    Mr. Rohrabacher. That's fine. Now, let me ask you this. 
Now, I am from Long Beach State and you are from MIT. But I 
have----
    Secretary Moniz. Good at basketball.
    Mr. Rohrabacher. But there are other people with 
credentials, like Richard Lindzen from MIT, who are very 
skeptical of some of the research that has been going on and 
have articulated that, yet we have just a few weeks ago, an 
offshoot of President Obama's reelection campaign listed 
climate deniers. The only other use of that term is a Holocaust 
denier. Do you use the term denier for those people who 
disagree with you on climate science, and do you think that 
term is appropriate in engaging in a civil discourse over a 
scientific issue?
    Secretary Moniz. I much prefer a civil discourse and that 
is what I hope we are engaging in.
    Mr. Rohrabacher. All right. Thank you very much.
    Now, I certainly am very pleased to hear your commitment to 
small modular nuclear reactors. I am rather concerned in the 
development of those small modular reactors that new technology 
is being focused on rather than light water technology, which 
is not new technology. Is there some way we are going to meet 
that challenge that these new small modular reactors are going 
to be based on a new concept, which I think is much safer and--
to the public by going with--not going with the old light water 
reactor system?
    Secretary Moniz. Well, of course, the first award that was 
made, as you know, was for a light water reactor-based system, 
and that is the one that we anticipate being deployed about--by 
2022 or so assuming the licensing goes well, et cetera. And, of 
course, light water reactors will have an advantage in terms of 
NRC familiarity with that technology----
    Mr. Rohrabacher. Right.
    Secretary Moniz. --for licensing. In the call that is out 
now, there will be--I am sure, although I don't actually know 
this; we are in the middle of it--but it is certainly open to 
both light water reactor and other technologies.
    Mr. Rohrabacher. Now, let me note that I think if we are 
going to be moving forward with new technologies, shouldn't 
that be based on old concepts when--if there are new ones 
available? And I am looking forward to working with you and 
seeing that we can try to develop this new type of small 
modular reactor that is going to serve our purposes decades 
into the future.
    And one last note, one last question is that is we are 
spending billions of dollars in wind-related research, and this 
is--I mean across the board here. I think it is $4 billion in 
82 different federal wind-related initiatives. For a small 
fraction of that cost, there are people who are--this Committee 
also receives NASA. There are people at NASA who suggest that 
we might be able to develop a space-based solar system that 
would again be clean energy coming from space and the--and be 
able to be unloaded on a grand receiver that is a lot less 
obtrusive than a refinery, et cetera. Do you have any 
inclinations toward--or do you know about this concept of 
space-based solar power and what are your--what is your 
reaction to it?
    Secretary Moniz. Well, I was certainly aware of the 
concept, which has been around for quite a long, long time. I 
have not studied it. The last I knew that it was felt by many 
at least to be rather impractical in terms of the resource 
requirements, but I would be happy to look at that again if you 
think it is an area to look into.
    Mr. Rohrabacher. Yes, I will be looking forward to going 
through that with you.
    And now, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Thank you, Secretary Moniz, for being here today. I think 
your confirmation 97 to 0 in the Senate is a great testament to 
you and your work. We rarely see anything like that up here on 
Capitol Hill these days, so I think that really shows a great 
respect for not only the work you do but how you do it.
    So the first thing I wanted to bring to your attention is a 
topic that I raise a lot in this Committee, which is the 
National Science Foundation's Innovation Corps program. As you 
may know, the I-Corps program is an entrepreneurial education 
program developed by serial entrepreneurs in the Silicon Valley 
teaches scientists how to be entrepreneurial. And, as I am sure 
that you understand that this is something that does not come 
naturally or has been taught to a lot of scientists or some of 
our great researchers out there.
    Now, the program is already having an impact because, as we 
saw three months ago, a team that went through the I-Corps 
program founded a company called Neon that secured seed funding 
from a private venture capital group. And the founders of Neon 
have credited their current market strategy to the lessons that 
they learned, the connections that they made through the I-
Corps program.
    In April, I wrote to the Department of Energy about this 
program and Dr. Holdren has testified before this Committee 
that the Administration sees a lot of promise in 
entrepreneurial education programs like I-Corps. I think 
researchers funded by the Office of Science and other areas of 
DOE will benefit from participating in this program as well. So 
this is more of a comment that a question, but I would urge you 
to take a look at the I-Corps program because I think 
entrepreneurial education for energy researchers can have a 
tremendous impact on getting new energy technologies to the 
market more efficiently.
    And that is I think a perfect lead-in to the----
    Secretary Moniz. Thank you.
    Mr. Lipinski. --what I wanted to address next and ask you 
about. Argonne National Lab, which is in my district, is the 
proud home of an energy innovation hub on energy storage and 
battery technology, as you mentioned in your opening remarks. I 
supported strongly this application by Argonne and I am very 
proud of the work that they are doing because I think it has 
the potential to be transformative both for the transportation 
sector and for renewable energy.
    Now, at the same time, there is more to Argonne than just a 
battery hub. Resources like the Advanced Photon Source, the 
Mira supercomputer, and a nuclear energy program, among others, 
all have worldwide renown.
    So I would like to get your ideas, Dr. Moniz, for how the 
innovation hubs will work moving forward, and along the same 
lines, how can DOE ensure that the United States maintain the 
right level of commitment to national laboratories and all 
their world-leading scientific facilities, as well as the 
science and energy challenges in close cooperation with the 
industry?
    I think the energy hubs, innovation hubs are fantastic. We 
also face the challenge of how do we balance this with all of 
the great work that is being done at these facilities. I wanted 
to get your views on this.
    Secretary Moniz. Thank you. There are several parts to the 
question. If I may just make a note that your discussion about 
storage for both vehicles and grids that actually I sent a 
letter just this week to Senator Wyden and his request 
looking--that lays out a schedule for us to develop a plan for 
grid-scale storage. So that is something you may be interested 
in as well. I would be happy to share that with you.
    With regard to hubs, I personally believe that the hubs are 
a very important way for the Department to do business. The 
assembly of multidisciplinary teams of scientists and engineers 
work across the innovation chain as it fits the mission 
purpose, and it is something I would like to support strongly. 
Of course, we have to make sure that they are also being 
managed well and heading to their goals, and I intend to carry 
out a review of the existing five hubs to see how we can 
strengthen them and strengthen future hubs.
    I might say that with the national labs--you mentioned the 
national labs broadly--frankly, I think this is the way the 
national labs in my view should do more of their business with 
significant teams focused for an extended time on an important 
problem. I think that is what the labs can do really uniquely 
much more easily than a typical university environment.
    And I have had the pleasure of now meeting twice with the 
lab directors, once by video, once in person, and I think they 
are on the same page as I am and that last statement. And very 
importantly, I think I have said that I would like to work with 
the leadership of the labs in a much more strategic way than I 
think has been the case for some time now. As my friend George 
Schultz likes to say, when you want people there on the 
landing, you should have them there on the takeoff, and I want 
the lab directors up front talking about our strategic 
directions.
    Mr. Lipinski. Thank you very much. I think it is important 
that, you know, we continue on and pursue these innovation 
hubs, but we can't lose sight of what else is going on at the 
labs. I thank you very much.
    Secretary Moniz. If I may just add a comment. I have said 
not only the labs but also the universities where the issue of 
a lot of smaller groups and single investigators is very, very 
important. We need to have the right balance.
    Mr. Lipinski. Thank you. I yield back.
    Mr. Rohrabacher. Thank you, Mr. Lipinski.
    And, Mr. Hall?
    Mr. Hall. Thank you, Mr. Chairman.
    And I thank you and the former Chairman of 15 minutes ago.
    And, Secretary Moniz, I thank you for appearing. You 
appeared before us last week, I believe, to discuss Department 
of Energy science and technology priorities.
    Mr. Secretary, as you are well aware, the process of 
hydraulic fracturing has revolutionized the energy industry 
helping really put our country America on the course for 
becoming the world's largest producer of oil and gas by the end 
of the decade. I think those may be partially your words. And 
you have previously and consistently stated that the 
environmental impacts from fracking are ``manageable.'' I think 
that is too weak, and I want you to improve on that. And I'm 
going to try to give you a chance to. And that it ``certainly 
was not clear to you'' that there have been major consequences 
from fracking. That is positive, too, but it is not quite far 
enough. Can we go a step further? Let me help you.
    Last week, you concurred with earlier testimony from former 
EPA Administrator Lisa Jackson of all people that there had not 
been a single instance in which fracking has been found to 
contaminate drinking water. That ought to put to rest whether 
or not fracking has caused drinking water to be bad, shouldn't 
it? That ought to be enough.
    Secretary Moniz. Well, sir, I think, as I said last week as 
well, I mean that--
    Mr. Hall. Well, if you don't think it ought to be enough, 
tell me and I will go on to another paragraph for you.
    Secretary Moniz. Well, again, I think I need to clarify my 
statement. So what I said is the fracturing process, as far as 
I know, I know of no incidents. But, as I also said, it is the 
conventional activities like well completion, cement jobs where 
there have been problems. Water management on the surface, 
methane emissions, all of these are manageable in the sense 
that we know the solutions; we just have to put the solutions 
in place all the time.
    Mr. Hall. They are self-manageable because they are 
thousands of feet apart, aren't they, normally?
    Secretary Moniz. Well, no, but the real issue is in the 
penetration to the ground, the well, it is the first 200 feet 
as opposed to 7,000 feet below in the fracturing.
    Mr. Hall. Okay. As you know, in the well-publicized 
instances, the EPA has claimed that fracking caused drinking 
water contamination in Pavillion, Wyoming; Parker County, 
Texas; in Pennsylvania, and all these claims turned out to be 
unfounded and almost dishonest.
    Several experts have appeared before the Committee and 
confirmed that there had been no evidence or history of 
hydraulic fracturing affecting usable quality of water. Even 
Dana, the Chairman right here today, asked the last question of 
an administration member that came here to testify, left the 
President's desk to come here and testify, and the last 
question Dana asked him was do you know of anywhere, anytime in 
the history of the United States of America that fracking has 
caused drinking water damage? And his answer was no. Are you 
aware of that?
    Secretary Moniz. I wasn't aware of that specific answer but 
it is very consistent with what I have said, yes.
    Mr. Hall. And given the EPA's poor track record, how can 
the Federal Government repair its reputation on fracking?
    Now, we could work on that reputation if it had been a 
different president appointed and elected last year but it 
wasn't. So we have a president that thinks different to what 
the president we offered I think would have had on fracking. I 
think we would have looked into some of the testimony that they 
came here and gave under oath. And will you work with the EPA 
to assure ``good, objective measurements and analysis'' that 
you have stated are needed? You are going to do that, aren't 
you? We think you are and we hope you are.
    Secretary Moniz. Well, sir, first, I have to say, I mean, 
the President in my view has been--is all-of-the-above energy 
policy and he has been very supportive of the developments of--
in--of the gas industry. With regard to EPA----
    Mr. Hall. Well, I don't have enough time to go into it with 
you as to whether or not he has been supportive. I have a very 
100 percent different opinion that you have about the 
President's support of energy.
    Secretary Moniz. Okay. Well, that could be a longer 
discussion.
    Mr. Hall. Yes.
    Secretary Moniz. With regard to the EPA, as I said, 
clearly, they are the ones responsible for the regulatory 
arena, but we will certainly be happy to collaborate in 
technology and analysis. In fact, I mentioned earlier we are 
collaborating on the water issues involving fracking.
    Mr. Hall. Quickly, I want to ask you this: Do you agree 
that the funding mechanism creating the Royalty Trust Fund is 
an appropriate way to ensure a dedicated funding stream for 
unconventional and also deepwater natural gas? Yes or no?
    Secretary Moniz. Well, I think the----
    Mr. Hall. Yes or no, please. If you can't say either, why, 
just tell me you----
    Secretary Moniz. Well, the Administration, as you know, is 
not supportive of that, but the Energy Security Trust proposed 
has a very, very similar mechanism.
    Mr. Hall. And you are familiar with Section 999? I know you 
are----
    Secretary Moniz. I am indeed.
    Mr. Hall. --according to your background.
    Secretary Moniz. I am indeed.
    Mr. Hall. How does Section 999 program fit within an all-
of-the-above energy strategy?
    Secretary Moniz. Well, I believe the program executed under 
999 has been very effective in looking at R&D and particularly 
on environmental impacts of unconventional production, ultra 
deep unconventional, onshore, and also helping with research 
for small producers.
    Mr. Hall. And I close with this: If our Nation wants to 
move closer to energy independence, shouldn't the Federal 
Government be pursuing technology solutions to facilitate 
energy production rather than pursuing regulatory actions that 
restrict production? I hope you will say yes, and if you don't, 
why, it is okay. I thank you, and I yield back my time.
    Secretary Moniz. I think we should do both.
    Mr. Hall. Okay. And we have great hopes for you to tell us 
the truth.
    Secretary Moniz. Thank you, sir.
    Mr. Hall. And we want to be supportive of you.
    Secretary Moniz. Thank you, sir. And I would be happy to 
follow up with our longer discussion.
    Mr. Rohrabacher. Thank you, Mr. Secretary.
    And now, Ms. Edwards from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being with us here today.
    Over the couple of years that I have been on this 
Committee, we have been round and round about climate change. 
Is there human causes to climate change and what do we do about 
it? And so I just want to get really clear for the record. Mr. 
Secretary, do you disagree with any of the scientific 
conclusions of the vast majority of climate--the climate 
science community that an increase in CO<INF>2</INF> in the 
atmosphere leads to a warming of the Earth's surface 
temperature?
    Secretary Moniz. I certainly agree with that, yes.
    Ms. Edwards. Thank you.
    Secretary Moniz. Um-hum.
    Ms. Edwards. And, again, to be clear for our record, we 
have heard from economists, lobbyists, lawyers, lots of folks, 
not a lot of climate scientists, but I wonder what your 
response is to the argument that mankind cannot impact the 
climate or that several thousand scientists signed a letter 
indicating that climate change is not real?
    Secretary Moniz. I think there is no dispute in my--as I 
said earlier, the anthropogenic activity has been a major 
contributor to the recent global warming.
    Ms. Edwards. Great. I hope we put that to rest so we don't 
have to revisit it over and over again in this Committee.
    And then I want to ask you about renewables because in 
Maryland we just incentivized a program for offshore wind 
capacity, and I wonder how the Department is engaging with the 
States that have made these commitments to boosting solar, 
wind, and other renewable energy sources, and if you have a 
comment, if you will, about--I have a pet peeve about electric 
vehicles and it is that our Department of Energy and other 
departments haven't actually worked with local planners and 
regional planners to develop the kind of infrastructure that we 
need to fully implement these new technologies.
    And then I wonder if you could also comment on the impact--
you know, as we see an increase in production of natural gas, 
the impact on our ability to commit the resources that we need 
in an environment where a lot of fuel costs are pretty stable 
and so we don't have the anxiety about energy in the same way, 
and how that impacts your ability to drive an agenda that is, 
you know, results in us making the investment in technologies 
for energy efficiency?
    Secretary Moniz. Thank you. There are several questions 
there, I think.
    Well, first of all, let me say that I think offshore wind 
is a very important, very important area to pursue. Costs are 
still significantly too high, but it is a great wind resource 
and especially if we can push out to deeper waters. And we do 
have work going on in that area.
    Secondly, you mentioned in the context of EVs, but more 
broadly I have been very clear, I think, in my confirmation 
process and more recently that one of my goals is to 
significantly upgrade our interaction with States and 
localities. In fact, I have--I feel that if you look at our 
country, different regions have very, very different energy 
opportunities and needs, and I think we need to do more 
recognition of that so that we can work with regions and 
develop the appropriate approaches to a future low-carbon 
economy.
    The third, natural gas and the implications of natural gas, 
again, I view the natural gas bounty that we have as a real 
opportunity and a plus. I believe it is an opportunity 
ultimately for getting that bridge to a low-carbon future.
    In fact, one of the things we, I think, have not done 
enough of is looking at the integration of renewables, wind and 
solar, with natural gas, which is a good way of balance, but, 
in the absence of affordable storage so far, a very, very good 
way of balancing supply and demand.
    So, clearly, I mean, the natural gas bounty and low-cost 
natural gas has very much changed the marketplace, and that is 
why, in fact, we have lower CO<INF>2</INF> emissions. It is the 
substitution of gas for coal. It has also revitalized much of 
our manufacturing sector. So I think the issue is to integrate 
gas, recognize gas as part of the solution going forward.
    In the meantime, what is critical is continuing the 
investments in innovation because what we have to do, just like 
gas prices have come down, we have to lower the costs of 
alternative technologies.
    Ms. Edwards. All right. Thank you very much.
    Mr. Chairman, I yield.
    Mr. Rohrabacher. Thank you.
    Mr. Neugebauer?
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to have you here.
    In lobbying for his clean energy agenda, President Obama 
frequently states that the United States should follow the 
clean energy examples set by other countries such as Germany 
and Spain. However, in Germany the cost of electricity has 
risen nearly 40 percent in the last five years, and electricity 
prices for industry are 15 percent higher and the average for 
other countries in European--15 percent higher than the other--
the average in other European countries.
    And just last week, German Chancellor Angela Merkel 
announced at an energy conference in Berlin that spiraling 
costs of renewable energy are damaging the country's economic 
competitiveness and need to be scaled back.
    Spain is expected to announce next week cuts between 10 and 
20 percent to its subsidies for wind and solar projects. The UK 
has already trimmed some of the low-energy subsidies. It is now 
saying that Europe's European Union's target of getting 20 
percent of its energy from renewable sources by 2020 was a 
costly mistake. So what have we learned from the Europeans?
    Secretary Moniz. Well, I think there are certainly some 
important areas that we can learn from, although clearly, I 
think the most important thing is what we do here at home in 
terms of our own energy policy.
    But, as one example, you mentioned Germany. I would give 
two examples from Germany. One is--and they are both driven in 
a certain sense by their approach to standards. Their building 
efficiency is certainly extremely good, and that saves them a 
lot of money, especially when the costs are high for 
electricity.
    Another area where they are frankly much better off than we 
are is in the so-called soft costs for things like installing 
solar, 40 percent of our costs. So I think there are lessons we 
can learn there as well.
    Mr. Neugebauer. But, you know, I think one of the issues is 
we are pursuing an agenda that is really being detrimental in 
many cases to the consumers of this. And so I think one of the 
things that we want to be extremely concerned about is making 
sure that we let the marketplace determine what are the best 
alternatives and not the government.
    I would like now to yield some additional time to the 
Chair, Mr. Rohrabacher from California. I think he wanted a 
follow-up question.
    Mr. Rohrabacher. Yes, thank you very much.
    Just to note with your earlier statement about the 
intensity of weather conditions and how that reflects on the 
overall climate of the Earth, I heard a story about a week or 
so ago about the ship that they found in the Great Lakes, and 
it had disappeared, I think, in 1910. Do you remember that?
    Secretary Moniz. No, I do not.
    Mr. Rohrabacher. Okay. It was a big story----
    Secretary Moniz. Um-hum.
    Mr. Rohrabacher. --and that ship sank in 1910 in one of the 
great storms of 1910, and ships disappeared in Great Lakes and 
everything else where----
    Secretary Moniz. Um-hum.
    Mr. Rohrabacher. --and it was interesting that we had such 
a massive storm in 1910 which indicates that we are not now 
going through massive storms that are any different than 
massive storms that we had in the past. Roger Pielke, I think 
is how you pronounce his name----
    Secretary Moniz. Pielke.
    Mr. Rohrabacher. Dr. Pielke, thank you very much----
    Secretary Moniz. Um-hum.
    Mr. Rohrabacher. --head of there at the Colorado State has 
done a study of the statistics and says, yes, floods have not 
increased, hurricane frequency in terms of their landfall or 
intensity have not increased, the tornadoes especially the 
strongest ones have not increased at least since the 1950s when 
we had many of these tornadoes, drought has not--drought has 
actually decreased since the middle of the century, since 
especially, the 1930s, East Coast storms, there is no trend 
there, and he said, quite frankly, that this idea that we are 
now--every time a heavy storm comes through and we get it--you 
see it on TV for someone to suggest that this is something new, 
that it is wrong, I mean that we are--we have always had these 
intense storms. That is part of living on the planet.
    Secretary Moniz. Well, I would certainly agree that we have 
always had these intense storms. I think--and there is--
certainly, here, there is more scientific discussion needed 
than in some of the other areas, but the issue is many very 
reputable scientists analyzing the data----
    Mr. Rohrabacher. Right.
    Secretary Moniz. --not tornadoes but more----
    Mr. Rohrabacher. Okay.
    Secretary Moniz. --it is in cyclones because of the water 
issue. The--that it is the statistics; it is not any 
individual----
    Mr. Rohrabacher. Right. And you are aware that the--we--my 
colleague, Ms. Edwards, unfortunately is gone, but when we 
heard this over and over again, oh, the vast--you know, the 
overwhelming number of scientists disagree that it is manmade 
activity that is causing this increase in temperature, which I 
believe the temperature has stayed steady for 16 years now, 
long after----
    Secretary Moniz. That is in dispute.
    Mr. Rohrabacher. Okay. All right. But do you think the 
Russian Academy of Sciences is it to be taken seriously?
    Secretary Moniz. I would not offer an opinion.
    Mr. Rohrabacher. All right. Well, I hope that while you are 
in your office that the Russian Academy of Sciences is someone 
that you would be conferring with. They totally reject this 
theory. And I was just over there recently, spent a day with 
the scientists over there and talking to them.
    And one last thing in terms of wind and the rest of them, 
people--aren't there a lot of birds that are killed by these 
windmills as well? I mean I understand more birds are killed by 
these--by this wind power--this attempt to use wind power than 
we have polar bears in Alaska or in the Arctic.
    Secretary Moniz. I wouldn't know how to compare that but I 
must say, if I go back to the--what I tried to emphasize is 
that where I am coming from is actually much simpler. We know 
what the radiative forcing of carbon dioxide is and we have 
known that, again, for--since the 19th century. We know how 
that translates into average temperature increase. We know 
that--we know how much CO<INF>2</INF> is emitted from 
anthropogenic sources. We know how much CO<INF>2</INF> remains 
in the atmosphere. And this is all consistent with a track that 
would have us in the multiple degrees centigrade average global 
warming. The more one goes into localized expectations of 
consequences, the more scientific debate there is.
    Mr. Rohrabacher. Well, thank you.
    Secretary Moniz. But the macro is just clear by counting.
    Mr. Rohrabacher. Well, with all those charts--you are 
looking at the charts, do they also juxtapose solar activity 
like solar flares and solar things that also may have an 
impact----
    Secretary Moniz. It is a long discussion.
    Mr. Rohrabacher. We will have a long discussion on that.
    Mr. Bera.
    Mr. Bera. Yes, thank you. And I thank my colleague from 
California for letting me jump ahead.
    Dr. Moniz, thank you for being here today. My questions are 
simple. You know, the public expects us to address issues and 
solve problems, so I will ask some simple questions.
    Dr. Moniz, do you believe that the climate is changing?
    Secretary Moniz. Yes, I do.
    Mr. Bera. Okay. And do you believe that, regardless of 
percentages, that there are both natural causes of climate 
change as well as human causes of climate change?
    Secretary Moniz. Certainly.
    Mr. Bera. And do you believe that, given the trajectory 
that we are on, that at some juncture the climate change is 
going to become irreversible or be very difficult to----
    Secretary Moniz. Well, yes, because basically carbon 
dioxide stays in the atmosphere for many, many centuries so it 
is cumulative. And yes, we have kind of set the agenda for 
decades in advance already.
    Mr. Bera. And the longer we delay in dealing with this, the 
more difficult it will be?
    Secretary Moniz. Correct.
    Mr. Bera. So given that and given that all of us agree that 
you are one of the most qualified scientists, you know, the 
Senate overwhelmingly confirmed you, do you think our focus 
should be on those areas that we can actually impact climate 
change which would be the human causes of climate change?
    Secretary Moniz. Well, yes, I think we should--I think 
prudence calls for us to take prudent steps today, and I might 
add that the difference of the--again, the anthropogenic over 
these last decades is the rapidity with which we are--it is not 
a natural timescale the way we are increasing CO<INF>2</INF> 
emissions.
    Mr. Bera. Great. So this body can debate percentages, they 
can debate causes, but we all acknowledge that regardless of 
the percentage, there is a human factor here that leads to 
increased CO<INF>2</INF> emissions----
    Secretary Moniz. Well, I certainly--and a very strong one 
in my opinion.
    Mr. Bera. --that impacts our ability. Giving us advice, 
what recommendations would you like to see this body enact and 
the Administration enact so we start to slow this down?
    Secretary Moniz. Well, I think certainly from the 
Department of Energy and for this Committee's jurisdiction I 
think a key is to really push hard on the science and 
technology that underpins a transition over time to a low-
carbon economy. I mean I think that is the innovation agenda. 
And, as I have said, I think not all of my entrepreneurial 
friends like this, but I think the fundamental goal of this 
innovation is cost-reduction of these technologies.
    Mr. Bera. And----
    Secretary Moniz. So that they will all be marketplace 
competitive and drive--the policy will be a lot easier with 
lower costs.
    Mr. Bera. And specific recommendations for how we actually 
reduce the cost, what you would like to see us do?
    Secretary Moniz. Well, I mean, again, the targets I think 
are across-the-board efficiency. I mean efficiency is where 
today we still have many opportunities that are at least 
lifecycle-cost beneficial, whether that is vehicles, buildings 
of course are an enormous opportunity, industrial processes.
    Then, we need to go to low-carbon, carbon-free alternatives 
in the power sector, which is probably the leading sector for 
getting carbon out of the sector. We have three options: We 
have nuclear, we have renewables, and we have carbon capture 
and sequestration. And I believe we need a multipronged 
approach on all of these, and that is what, in fact, the 
President's budget proposes. That is what we are doing.
    Mr. Bera. Great. As a scientist myself, a life scientist, 
certainly this is critical.
    Secretary Moniz. Um-hum.
    Mr. Bera. You know, we certainly are seeing the changes 
that are occurring. Again, the vast majority of the public 
understands that the climate is changing. The vast majority of 
the science community understands that the climate is changing. 
And it is about time that we move past debating percentages and 
addressing the root cause issue where we can address that root 
cause issue.
    So, you know, we on this Committee look forward to working 
with you. We look forward to working with the Administration, 
and we look forward to working with the broader community to 
start addressing our children's future.
    Secretary Moniz. Yes, thank you.
    Mr. Bera. Thank you.
    Secretary Moniz. And, again, as I think you are saying, 
sir, there is lots of debate in terms of how we address it.
    Mr. Bera. Absolutely. But, yes, we can have that debate on 
how we address it.
    Secretary Moniz. Right.
    Mr. Bera. But let's move past the debate of whether the 
climate is changing or not. We know the climate is changing. 
And let's focus on those areas where we can have impact and we 
can actually, you know, ensure our children's future and our 
grandchildren's future.
    Secretary Moniz. Um-hum.
    Mr. Bera. Thank you, and I yield back.
    Mr. Rohrabacher. I thank you very much.
    Mr. Hultgren?
    Mr. Hultgren. Thank you, Chairman.
    Thank you, Dr. Moniz. Very good to have you here, and I 
really am looking forward to working with you and do feel like 
this is a pivotal time for so many issues dealing with science 
in particular, and so I just want to say how much I am looking 
forward to that.
    It has not been a secret that I had some strong 
disagreements with your predecessor and also with the President 
specifically with funding choices. And it is interesting even 
the discussion today and I appreciated your comments in your 
statement that the challenges we face, specifically some 
climate challenges, are not just our challenges; it is world 
challenges. And when you look at the impact, much of it is 
happening beyond our borders.
    And questions we have to ask is at what cost? There are 
things we can do but at what cost? And what other things suffer 
when we have limited resources? So that is the type of debate 
we need to be having, and I am looking forward to having that 
debate with you as well.
    I really have been frustrated where I feel like some 
important scientific work, specifically with our national 
laboratories, has been undercut under this Administration. And 
the opportunity to continue that funding and that priority and 
how it all fits in. I talk about really an ecosystem of science 
and how our laboratories and our universities and our 
commitment to STEM education all fit together with ultimately 
what type of nation are we going to be? Are we going to be an 
innovative nation, cutting-edge nation? That is what I want to 
make sure during my time here, whether that is short or long, 
and I hope to be able to work with you on that in finding areas 
where we can agree to move that forward.
    Secretary Moniz. Me, too.
    Mr. Hultgren. I do want to start questioning of really 
asking about DOE stewardship in discovery sciences. As you 
know, the DOE is responsible for things like particle physics, 
excuse me. My tongue isn't working today--that are not 
immediately related to its energy mission but have a long 
history of successes in improving our understanding of the 
universe. How will you make sure that we maintain the vitality 
of these fields and remain among the world leaders in things 
like high-energy physics at a time when the overwhelming 
priority of the Department has been on subsidizing existing 
energy technologies and addressing climate change?
    Secretary Moniz. Well, I believe these, as you call them, 
discovery sciences are an absolutely critical part of our 
stewardship. I think the--I mentioned--you mentioned, excuse 
me, particle physics. This is a place where--and this is also 
my approach--where frankly I think the community needs to come 
together and decide what is the next direction?
    Clearly, the center of high-energy physics right now is in 
Geneva, but Fermilab, for example, is emphasizing some 
precision physics and high-intensity physics. Is that the 
direction we go?
    So, Congressman, I think the community has a so-called 
Snowmass meeting this summer or--yes, summer, which happens to 
be in Minneapolis.
    Mr. Hultgren. It is not quite Snowmass.
    Secretary Moniz. But I think that that is a critical 
meeting because, frankly, I think the particle physics 
community has not had as clear a strategic plan in the last 
years as some of the other fields have had.
    Mr. Hultgren. Well, I agree with you, and I really do 
appreciate what you had said earlier, too, with my colleague 
from Illinois, Mr. Lipinski, of the work that you are doing of 
bringing lab directors together to make sure that we have a 
strategy, that we are not just floundering. And also there have 
been times where we have kind of pitted labs against other 
labs. I don't believe it should ever be that way. It is one of 
the reasons we started up the National Science and Laboratories 
Caucus, just to help educate other members of how important 
these are and how each play an important role.
    We need to hold them accountable with the funds they have, 
but let's make sure that we are committed to them and telling 
the story among ourselves and to the world of how important 
this is.
    You mentioned--and my time is going to run out, but you 
mentioned how the focus of physics really has changed and 
focused on Geneva, and that is part of the discussion we have 
to have as well is big projects, big science projects and how 
we are going to do that into the future. I want to have that 
discussion also and look forward to maybe a time where we can 
sit down, hopefully, and talk about that.
    In my last remaining seconds I do want to switch gears to 
something else you talked about in your opening statement, and 
that was recent news from China on the fastest computer coming 
out of China. I am currently working with several of my 
colleagues on this Committee on legislation that will 
reauthorize some of the Department's high-speed computing 
research programs to push us towards the exascale of computing 
systems.
    With that news out of China, where do you think we--there 
are opportunities to shift funding at the DOE where we could 
get more bang for our buck with exascale computing instead of 
existing expenditures in other areas. And to what extent would 
you hope to coordinate the activities of the Office of Science 
with NASA on some of that work?
    Secretary Moniz. That is a very interesting question. First 
of all, we are well along in putting together an exascale plan 
that we hope to bring to the Congress shortly. I think, by the 
way, a key direction for the United States in this kind of 
international competition is to lower the energy requirements 
dramatically.
    Mr. Hultgren. I absolutely agree.
    Secretary Moniz. I mean our target is like a 20 megawatt 
exascale machine and not a gigawatt exascale machine. So that 
is an example of a very important area.
    I think working with NASA could be very interesting. By the 
way, not only on that as an enabling technology, but another 
place is robotics. I think where we could have a lot more use 
of robotics in our difficult nuclear security and cleanup 
missions, and NASA, of course, is a pioneer there.
    Mr. Hultgren. Good. Well, I wondered if maybe I could get a 
copy of the bill we are working on to get your thoughts on 
that, the exascale computing bill that we are going to be 
presenting here in the next couple of days. And you are right; 
there are some significant challenges. I know just the Chinese 
system, I think it has got over three million cores and about 
18,000 kilowatts of power, so these are the challenges we are 
going to have to face to really get to exascale. But I know we 
can do it but I want to be intentional on that and strategic--
--
    Secretary Moniz. Right.
    Mr. Hultgren. --whether it is with the labs or whether it 
is with our computing. So thank you. I will look forward to 
working with you.
    Secretary Moniz. Thank you.
    Mr. Hultgren. I do hope it is positive. I think this is a 
pivotal time.
    With that, I yield back. Thank you for your generousness 
with the gavel.
    Secretary Moniz. And if I may just comment, I wasn't aware 
of this caucus with labs, and I would be happy to meet with 
that----
    Mr. Hultgren. We would love to have you. It is bipartisan 
and we are working together across the aisle seeing how this is 
important and how we really haven't done as good of a job as we 
should have telling the stories of what our labs have done and 
continue to do and how important they are. So thank you. I 
yield back.
    Mr. Rohrabacher. Thank you. And I am going to have to 
unfortunately give up this gavel and--but Mrs. Lummis, who is 
the Chairman of the Energy Subcommittee here on Science and 
Technology, will be taking the Chair, but for--in the meantime, 
Ms. Bonamici from Oregon will have her time.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Thank you, Dr. Moniz, for your testimony today. I am going 
to ask about three issues: electric vehicles; solar energy, 
especially domestic manufacturing; and wave energy. And because 
my time is short, I am going to ask the three questions and 
then give you time to respond.
    I was pleased to see significant increases in the energy 
efficiency and renewable energy budget proposal, particularly 
in the area of vehicle technologies. Oregon is a national 
leader in this area. We have a high number of electric 
vehicles. In fact, your department recently found that in 
Oregon the cost to operate an electric vehicle is the 
equivalent of running on gasoline that costs 96 cents a gallon. 
I think many of my colleagues would appreciate that in their 
districts.
    So can you describe the Department's plans to replicate 
this type of success in other communities that don't yet have 
the same deployment levels as my State of Oregon?
    And then secondly, on solar energy, you highlight solar 
energy as a priority. I am glad to see this reflected in a 
proposed budget increase. In my district in Oregon we have 
SolarWorld, employing about 800 people, providing the 
installation industry with a high-quality product while also 
supporting domestic manufacturing. But SolarWorld's ability to 
compete domestically is being threatened. Last year, the 
International Trade Commission unanimously found that U.S. 
solar manufacturers had been injured by unfair trade practices.
    So will you please discuss the impact of such trade 
practices, especially on domestic solar manufacturing? And can 
the Department of Energy do more to support domestic 
manufacturing?
    Finally, Oregon has made a strategic decision to work with 
the Federal Government to become an international leader in 
wave energy. Many countries, especially in Europe, have already 
deployed viable operating electricity-generating projects using 
the emission-free power of ocean waves and currents and tidal 
forces. In fact, the U.K. has spent more than US$780 million on 
wave energy R&D over the past decade. I believe it is critical 
that the United States send a clear signal to the rest of the 
world that we are a strong competitor in and serious market for 
this emerging sector.
    There is a need for some investment related to development 
of an offshore testing center, which I of course hope will be 
in Oregon and wonder does the Department plan to pursue an 
increase for water and wave power in the Fiscal Year 2015 
budget request to Congress?
    Thank you very much and please respond in the remaining 
time.
    Secretary Moniz. Thank you. The--so first on the electric 
vehicles, let me actually first note that in the 2011 
Department of Energy Quadrennial Technology Review, the lead 
recommendation was to shift emphasis relatively speaking more 
towards advanced vehicle technologies, and that is reflected 
now in the Fiscal Year 2014 budget. That Quadrennial Technology 
Review is in the first step towards the Quadrennial Energy 
Review that I mentioned earlier, which I hope will have similar 
consequences on a broader playing field.
    In terms of the deployment of electric vehicles, clearly, 
today, the number of vehicles deployed is modest, but the rate 
of deployment is actually faster than it was for hybrids at 
this stage of their deployment. And partly it is because they 
are really high-performance vehicles, a little bit expensive at 
the moment, but very, very high performance.
    The eGallon you referred to in terms of the operating costs 
of such a vehicle in your State it was below $1; the national 
average is $1.14. And we have a tool now where somebody can 
find the price of operating a vehicle the same way they can at 
the local gas station seeing the price up there.
    So the goal here is A) get the capital costs down for the 
batteries; B) in programs like our Clean Cities and our 
strengthened emphasis on States and localities that I am 
bringing in. And I have--I can't say right now but I think we 
will have--an excellent person will be coming in to head this. 
She is very, very--been very prominent in state energy issues 
that we will be looking to help localities in terms of the 
infrastructure development.
    Secondly, on solar, clearly, I mean many, many policy 
instruments are not in the realm of the Department of Energy, 
but what I would say is, of course, again, we come back to the 
cost reduction----
    Ms. Bonamici. Right.
    Secretary Moniz. --not only in the, let's say, a module per 
se but in the manufacturing processes, very, very important. 
The President's Manufacturing Initiative, I think, is going to 
be very important here, advanced materials. The new one that is 
up for bid right now involves power electronics. That is part 
of a system for solar. And, again working with the States, we 
have got to find a way to get the soft costs down----
    Ms. Bonamici. Right.
    Secretary Moniz. --which, right now, are driving things 
very, very heavily.
    On--what was the third? Wave energy, wave and tidal energy, 
that is a program that I have to say I have not yet gotten to 
review. I know it is a small program right now. I have received 
strong encouragement to look at the--what have been called the 
forgotten renewables beyond wind and solar and that would be 
waves, micro hydro, geothermal. So we will be looking at that 
in the Fiscal Year 2015 budget preparation. Clearly, I can't 
make a commitment on any specific number now.
    Ms. Bonamici. Terrific. Thank you very much. My time has 
expired. We look forward to working with you----
    Secretary Moniz. Thank you.
    Ms. Bonamici. --and I yield back, Madam Chairwoman.
    Mrs. Lummis. [Presiding] I thank the gentlelady, and I wish 
to add my warm welcome to you----
    Secretary Moniz. Thank you.
    Mrs. Lummis. --Secretary Moniz.
    Next, you will be hearing from the gentleman from Indiana, 
Dr. Bucshon.
    Mr. Bucshon. Thank you. And thanks for being here. A couple 
of questions that I have about worldwide CO<INF>2</INF> 
emissions, what percentage of the world CO<INF>2</INF> 
emissions from a human source come from the United States? Do 
you have any idea?
    Secretary Moniz. Oh, it is--I would say approaching 20 
percent.
    Mr. Bucshon. About 20 percent?
    Secretary Moniz. We are number two after China.
    Mr. Bucshon. Right. Okay. So if we hypothetically 
eliminated all CO<INF>2</INF> emission in the United States, 
would that have any effect on the world--on the global 
atmospheric CO<INF>2</INF> situation?
    Secretary Moniz. Well, I--it certainly would because I 
believe it would be in the context of others doing the same.
    Mr. Bucshon. Okay. And you think--what is the likelihood, 
you think, that others would do the same as some of the things 
that are being proposed?
    Secretary Moniz. Well, I think, you know, I am cautious 
about speculating. I think what we need to do is to take care 
of our business, lower the costs of low-carbon technologies and 
create industries, hopefully, that can be profitable in selling 
to the world as the world goes to low-carbon. So I think we 
have plenty of incentives, but clearly, in the end, we need to 
bring along all the major emitters.
    Mr. Bucshon. Right. And so the question I have, I mean, 
first of all, I do believe the climate in the world is 
changing; I am just very skeptical about the role of human 
CO<INF>2</INF> production in that based on historical climate 
change over the course of the history of the world. And so do 
you think that the United States should economically 
disadvantage itself with that end goal when it is pretty clear 
to me that it is very unlikely the rest of the world will do 
what you are proposing to do?
    Secretary Moniz. I think we should advantage ourselves and 
then we may have a discussion about what it means----
    Mr. Bucshon. Sure.
    Secretary Moniz. --to advantage ourselves today, ten years 
from now, 30 years from now. The energy scene, no matter what 
the drivers are, is not going to look the same as it does 
today, and I think we need to have a robust----
    Mr. Bucshon. Now, is that your opinion or do you have--how 
do you know that that----
    Secretary Moniz. That is my opinion.
    Mr. Bucshon. That is your opinion? Okay.
    Secretary Moniz. And I would say, sir, if I may that----
    Mr. Bucshon. Yes.
    Secretary Moniz. --I think when we look back in time ten 
years, 20 years, we are always amazed at how the world looks so 
different. But when we look forward, we tend to think it is 
going to look just the same.
    Mr. Bucshon. Yes, can I talk about Germany right now? What 
is Germany doing with their energy production? What is--
currently, I mean what are they doing, for example? Do you have 
any idea?
    Secretary Moniz. Germany has--of course, one thing is they 
are phasing out their nuclear power.
    Mr. Bucshon. Right, which is what you are proposing that we 
use as a different source in the United States. So they are--
why are they phasing that out?
    Secretary Moniz. In my view it is their decision----
    Mr. Bucshon. And what are they phasing in?
    Secretary Moniz. The issue is what they phase in, exactly.
    Mr. Bucshon. Yes, they are phasing in coal-fired power 
plants----
    Secretary Moniz. And right now----
    Mr. Bucshon. Is that true or not true?
    Secretary Moniz. There is some additional coal and a lot of 
additional gas.
    Mr. Bucshon. Okay.
    Secretary Moniz. Yes.
    Mr. Bucshon. Do you know----
    Secretary Moniz. I am sorry. And wind also.
    Mr. Bucshon. Yes, I understand.
    Secretary Moniz. Yes.
    Mr. Bucshon. Do you know--have any idea where venture 
capital is going when it comes to renewable energy sources? Do 
you know private investment, venture capital, because what they 
are doing as it relates to wind and solar right now, do you 
have any idea?
    Secretary Moniz. Well, I think it has come down a bit from 
the peak but it is still a pretty large----
    Mr. Bucshon. And why would that--why wouldn't then--why 
would private sector venture capital be leaving renewables? And 
I am not saying I am against renewables because I am for 
everything, okay----
    Secretary Moniz. Well----
    Mr. Bucshon. --but why would that be?
    Secretary Moniz. Well, I don't know in detail. I mean, 
certainly, one of the reasons has been the large uncertainties 
in the wind case around the tax.
    Mr. Bucshon. And you would have to--you may or may not 
agree that it is because that at this point in our history, 
they are not economically viable and--without the Federal--
massive Federal Government infusion of cash into those 
industries, is that true or not true?
    Secretary Moniz. Wind certainly in many cases is 
competitive. In fact, earlier, the gentleman from Texas raised 
an issue. Well, just recently, our site--DOE's site Pantex 
signed a fixed power purchase agreement with Siemens from a 
wind farm and they are saving $30 million.
    Mr. Bucshon. Okay. My point is----
    Secretary Moniz. I believe it is competitive.
    Mr. Bucshon. I think that--you know, I--from an R&D 
standpoint, I would probably--you and I would probably agree 
that continued R&D in these areas is critically important going 
forward.
    Secretary Moniz. Um-hum.
    Mr. Bucshon. The question is is are we getting ahead of 
ourselves by--at this point without R&D showing that these are 
economically viable, getting ahead of ourselves essentially? 
When venture capital is leaving those areas of our economy, 
should the Federal Government, other than R&D in those areas, 
continue to put this kind of money into those when it is clear 
that the private sector and venture capital are leaving them 
because they are not economically viable? That is the bottom 
line.
    Secretary Moniz. Well, as I have said, we clearly agree on 
the R&D. But, today, costs are dropping and in many instances 
are already competitive. That is not a universal statement but 
in many instances competitive. That is both wind; the Pantex 
example is one; and solar, particularly when solar is helping 
to shave piece at times of large----
    Mr. Bucshon. My time is expired. Thank you very much.
    Mrs. Lummis. I thank the gentleman.
    And now, you will have some questions from the Ranking 
Member of the Energy Subcommittee, the gentleman from 
California, Mr. Swalwell.
    Mr. Swalwell. Thank you, Chairman Lummis.
    And welcome, Dr. Moniz. I am actually very glad you are 
here because I had a town hall in my district on Saturday back 
in the Bay Area of California, and a number of my constituents 
could not believe that in this Committee some of my friends on 
the other side still have questions and deny that humans play a 
role in climate change.
    So theire questions here today that illustrate that I am 
not crazy, that that is still a debate in this Committee. And I 
put up for you on the screen something from the NASA website 
called ``Climate Change: How Do We Know?'' And there is a graph 
there of CO<INF>2</INF> parts per million on the left side of 
the graph and on the bottom side you see over the period of 
time starting at about 400,000 years ago going up to about 
25,000 years ago, you see a spike. And then, of course, it 
really spikes around where 1,700 would be. And I am wondering 
is there any correlation between the industrial revolution and 
the CO<INF>2</INF> parts per million in that graph?
    Secretary Moniz. Well, it is quite direct actually.
    Mr. Swalwell. And what is the correlation, Dr. Moniz?
    Secretary Moniz. It is a very positive correlation.
    Mr. Swalwell. And what can we assume the cause of the 
CO<INF>2</INF> parts per million going up?
    Secretary Moniz. Well, this is exactly what I was referring 
to earlier in terms of, roughly speaking, counting CO<INF>2</INF> 
molecules. We know how many molecules are emitted. We know how 
many were in the atmosphere. It tracks quite closely.
    Mr. Swalwell. And, Dr. Moniz, do 97 percent of scientists--
climate scientists agree that climate warming trends over the 
past century are very likely due to human activities?
    Secretary Moniz. Yes, I have seen 97, 98 percent, those 
numbers, yes. Um-hum. I am not sure how that number is arrived 
at, but yes. Um-hum.
    Mr. Swalwell. Thank you. And, Dr. Moniz, are you familiar 
with the National Ignition Facility at Lawrence Livermore 
laboratory?
    Secretary Moniz. Yes, in general terms. I have not had yet 
the chance to drill down into it since I have been in the 
office the last 3 weeks but----
    Mr. Swalwell. Well, better than drill down I would like to 
invite you to come visit the facility. It is in my district. It 
is also in wine country so after the tour we would be happy to 
show you around.
    Secretary Moniz. Before the tour?
    Mr. Swalwell. Do you support the National Ignition 
Facility's dual goal of maintaining our nuclear weapons 
stockpile and providing scientists with the physics 
understanding necessary to create fusion ignition and energy 
gain for future energy production?
    Secretary Moniz. Well, I mean, I have to say I think 
clearly the principal purpose of the facility has been for 
stockpile stewardship, and even without ignition, which remains 
a goal for a few years from now, presumably, that has to be the 
major focus. Now, clearly, a lot of that work certainly getting 
to ignition will, by definition, be useful for the ICF purpose.
    Mr. Swalwell. And you mentioned that just this past week 
Oak Ridge's supercomputer is a no longer the world's fastest, a 
mantle once again claimed by China. Does it trouble you that 
Russia and China are also beginning to outpace us when it comes 
to fusion ignition projects?
    Secretary Moniz. Well, I think it is more of an across-the-
board issue. I think, you know, we are in a different world, 
highly competitive in terms of technology innovation, and we 
have just got to keep out in front.
    Mr. Swalwell. Would you agree, then, that the President's 
Fiscal Year 2014 budget request for the National Ignition 
Facility, a cut of $110 million, will set us back in achieving 
ignition and will cede of leadership in the area of fusion 
ignition to Russia and China?
    Secretary Moniz. Well, clearly, there were lots of 
difficult choices that needed to be made, and the Department of 
Defense, with the Department of Energy and OMB, just felt that 
the needs in stockpile stewardship and stockpile reliability 
just had to be met in a very tough budget environment.
    Mr. Swalwell. And, Dr. Moniz, the Lawrence Livermore 
National Lab Director has told me and Congresswoman Lofgren, 
who has also been an advocate and champion for fusion ignition, 
that if the President's budget for NIF stands, it will 
essentially either shut down NIF or set back all of its major 
goals by at least ten years. Since NIF began operating in 2009, 
they were a factor of 1,000 away from achieving ignition. 
Today, they are a factor of 10 away, which would be equivalent 
of taking a road trip from Denver, driving to San Francisco, 
and then when you get to Oakland deciding to stop and turn 
around and go back to Denver.
    So my question is will you let NIF shut down on your watch 
or will we see it continue to march forward toward ignition?
    Secretary Moniz. Well, I will have to talk with Mr. 
Albright about that statement. Certainly, the intent is to have 
NIF--we need it strongly engaged certainly in our Stockpile 
Stewardship Program.
    Mr. Swalwell. Great. Thank you, Dr. Moniz. And thank you 
for interpreting that graph on the fly without any warning 
ahead of time. I appreciate it.
    Secretary Moniz. Thank you. Right.
    Mr. Swalwell. And I yield back the balance of my time. 
Thank you, Chair Lummis.
    Mrs. Lummis. I thank the gentleman and the Ranking Member, 
and I hope that you will include us on this tour that you were 
discussing with the Secretary.
    Next is the gentleman from Arizona, Mr. Schweikert.
    Mr. Schweikert. Madam Chairwoman, is it the tour or the 
wine country part?
    Mrs. Lummis. The former and the latter--
    Mr. Schweikert. Yes, yes.
    Mrs. Lummis. --yes.
    Secretary Moniz. You know, it is an incredible machine.
    Mr. Schweikert. Mr. Secretary, first off, congratulations. 
You have actually one of the positions in government that, on a 
personal basis, I find absolutely fascinating because of the 
things you get to touch and influence. But you have actually 
seen some of the nature of the conversation here today, and I 
come with you--at you from a certain philosophy saying, you 
know, the arrogance of really smart people sometimes we think 
we know more than we do.
    If I were to hop in the literature right now and go back a 
dozen years ago, whether it be you or many of the smart people 
who you hang around with, what would you have written about 
peak oil? The fact of the matter is the next incremental barrel 
of oil, you know, much of the literature in the very late '90s, 
very early 2000 made it very clear that the next incremental 
barrel of oil or fossil fuels would be less.
    Small problem is we got it wrong. And we built tax codes 
here, we built environmental codes, we built regulatory codes, 
actually even foreign policy based on a premise that was 
absolutely wrong. I have been very pleased on a couple of your 
comments saying you are going to try to focus policy on a broad 
optionality----
    Secretary Moniz. Um-hum.
    Mr. Schweikert. --because the arrogance that you and I know 
what tomorrow is is the great fault around here. And I know 
this is starting to sound more like a speech and I don't mean 
it to. 2007 around here we all knew that compact fluorescent 
bulbs were the future except for the fact they are not. As of, 
what was it, December LEDs crashed in price and now I can do 
LEDs for less money than compact fluorescent. But we had the 
arrogance that we all knew what the future was.
    Can I beg of you, as you are doing your policy sets, as you 
visit with policymakers here, to maximize that discussion? I 
know you come from a physics background, which is often very 
linear in thinking and saying, policy-wise, who knows what is 
being developed in someone's garage right now that you and I 
have never thought of that is tomorrow's manufacturing 
technology breakthrough. Can I beg of you with this position 
you have in the next couple years you will maximize that 
optionality for the next great breakthrough?
    Secretary Moniz. Sir, that is exactly along the lines of 
what I was trying to emphasize that I think we don't know the 
future. We always think of the future, again, as a linear 
extrapolation of the present, and it is not. And it is those 
innovations that do so much to change the future.
    I will just say one thing, however, in terms of peak oil. I 
have witnesses; I was never a peak oil believer.
    Mr. Schweikert. You will be happy to know, I really 
couldn't--I Googled you and I did not see you pop up. I did see 
the guys just down the hallway from you at MIT writing huge 
articles about how, right now, we should be about $200 barrel 
in oil as of this month.
    Secretary Moniz. Well----
    Mr. Schweikert. We didn't even get close.
    Secretary Moniz. --certainly predicting oil prices is a 
loser's game----
    Mr. Schweikert. Yes.
    Secretary Moniz. --but on peak oil, I mean, our view was 
always that----
    Mr. Schweikert. But it is----
    Secretary Moniz. --it is not molecules you run out of; it 
is at what cost can you get the molecules?
    Mr. Schweikert. But you have to agree it is a brilliant 
example of technology is faster-moving and smarter than we are 
because someone out there is coming up with it. It is--you 
know, when I hold up the book of--you know, the Population 
Bomb----
    Secretary Moniz. Right.
    Mr. Schweikert. --from 1968, the only thing they got right 
was the author's name. Everything in the book got wrong because 
the arrogance of not knowing what the next breakthrough is.
    Secretary Moniz. And also just to reinforce your point, in 
natural gas, of course, it was----
    Mr. Schweikert. Yes.
    Secretary Moniz. --very recently when major heads of major 
corporations not only got it wrong----
    Mr. Schweikert. Yes.
    Secretary Moniz. --but put their money in the wrong place.
    Mr. Schweikert. Well, yes, but that should be in markets. 
Look----
    Secretary Moniz. Right.
    Mr. Schweikert. --for just a bit of fun trivia before I 
bounce on my next really important thing, what is the only 
major industrialized country not to sign the Kyoto Accords? 
What is the only major industrialized country to actually hit 
its allocation?
    Secretary Moniz. Um-hum. Well----
    Mr. Schweikert. Because we did not overregulate natural 
gas, we had massive adoption because we didn't stop it. And all 
of a sudden, we have had our Kyoto Accords because of market 
pressures driving us there, not a command-and-control 
regulatory environment.
    There is one thing I will do very quickly. You actually 
have a lot of regulatory authority within your agency over 
things like showerheads. Believe it or not, I have a little 
constituent in my district that manufacturers froufrou 
showerheads. He had enforcement officers from the Department of 
Energy walk in his door, hit him with a $470,000 fine because 
the flow restrictor took too little pounds of pressure--and I 
hope I am describing that correctly--to yank out.
    Please be somewhat circumspect on the law enforcement 
functions you have within your agency and how they affect small 
businesses and our communities and our manufacturer. It is one 
thing to say you need to change the pounds of pressure to 
remove the flow restrictor; it is another thing to walk in and 
hit someone and scare the out of them, you know, with a 
$470,000 fine. And with that----
    Secretary Moniz. Okay.
    Mr. Schweikert. --I yield back.
    Mrs. Lummis. I thank the gentleman, and the gentleman from 
California, Mr. Takano, is next.
    Mr. Takano. I thank the Chairwoman, Mrs. Lummis.
    Thank you, Secretary Moniz, for your testimony before the 
Committee this morning.
    I was thinking about a joke I could make about 90 percent 
of the scientists and how my side of the aisle stands with the 
98 percent versus the two percent alluding to our economy and 
98 percent of the population versus the two percent, but I am 
not going to go there even though I just went there.
    Anyway, I am fortunate to have UC Riverside, a top-notch 
university research facility. I frequently hear from my 
constituents and researchers at the university about the key 
role that the Department of Energy plays in fostering 
innovation and funding basic research. Since 2009, UC Riverside 
has received more than $20 million from the Department to fund 
research ranging from high-energy physics to the hormonal 
regulation of plant growth.
    This fall, the university plans to open an experimental 
solar and battery smart grid, the largest at any university in 
the Nation. The smart grid research lab will allow researchers 
to study innovative ways to improve smart grid power 
management, link large computing data centers with the grid, 
study smart grid cyber security, and better understand ways to 
link energy from renewable sources with the grid. And that is 
just a snapshot of the work being done at UCR.
    DOE funding has also contributed to biofuels research and 
solar energy research at Bourns College of Engineering, which 
is part of the leading edge of research in pushing down on the 
costs and driving up the efficiency of solar energy collection. 
This kind of research and innovation not only creates jobs; it 
leads to the scientific breakthroughs that will allow us to 
face the challenges of the 21st century. And I appreciate 
hearing from you today about the Department's strategy as we 
work together to meet those challenges.
    Now, just to be clear, we--you, I believe, counsel moving 
forward with the best scientific knowledge that we have. I 
realize I want to be humble and not presume that we know the 
future, but 98 percent--or 97 percent of the scientists do seem 
to have a consensus that global climate change is real, that 
the carbon contribution is coming from human sources, and I 
don't want to keep beating that drum, but I think we have amply 
made that point.
    I want to go to one of my priorities as a former K-12 
teacher--STEM education. I believe you mentioned that the 
Chinese have a goal of educating one million students in the 
high-performance computing?
    Secretary Moniz. High-performance computing, yes, um-hum.
    Mr. Takano. Can you tell me the significance of that goal 
and do you think it is a prudent goal of the Chinese and what 
does that pose as a challenge to us as Americans?
    Secretary Moniz. Well, I don't--I can't judge whether it is 
prudent or not in China, but it does catch my attention in 
terms of the importance of training scientists and engineers 
and mathematicians, et cetera, for the--for our future.
    And another issue, in fact, I would raise is that I think 
we need still, after many years of working at it, to do a 
better job in terms of using all of our talent. Women and 
minorities certainly in the energy field, we are not as well 
represented as we need to be. So I think we need to just keep 
our eye on the ball. Human resources are the key in the end. We 
have got to use all of our human resources. And it is something 
that I certainly would like to work on in the next few years.
    Mr. Takano. I recently ran into a high school classmate of 
mine who was one of the, I don't know, innovators in terms of 
all of these games that people play on the Internet.
    Secretary Moniz. Um-hum. Um-hum.
    Mr. Takano. He was taken with this idea--this 1 million 
students caught my attention because he really thinks it would 
be beneficial if we started as early as prekindergarten to 
teach students the fundamentals of code writing. What do you 
think about that? Is that something----
    Secretary Moniz. I think I am not qualified to judge on 
that, but clearly, science, mathematics, and computer literacy 
are just clearly essential skills I think for young people to 
succeed in the future. Well, I mean, they can succeed in other 
things, too, but as a country we need more students succeeding 
in those areas.
    Mr. Takano. So----
    Secretary Moniz. And I may just add, one of the things that 
I have talked about that I would like to look at as a 
Department kind of along these lines is I think that we may 
want to look and come to the Congress for discussions at what I 
would call a traineeship program where we support--so it is not 
broad necessarily like scholarships; it is focus on areas of 
national need where we aren't producing enough young people for 
our missions.
    So, for example, in our nuclear security mission, you know, 
actinide chemistry; for our energy mission, power electronics. 
So I think that is something that would be a good discussion to 
have with this Committee and other members about mission areas 
for the Department, targeted programs to get more people 
trained.
    Mr. Takano. This has to be with workforce. But, Madam 
Chair, my time is up. I am sorry I went over.
    Mrs. Lummis. I thank the gentleman and yield to the 
gentleman from North Dakota, Mr. Cramer.
    Mr. Cramer. Thank you, Madam Chair, and Madam Ranking 
Member.
    And thank you, Mr. Secretary, for being with us and being 
so generous with your time.
    I--rather than beating the dead horse, I am going to accept 
it for a moment. And I was--appreciated a couple of things you 
said. You referred to three priorities of how to deal with or 
how to push science and technology investment in the--toward a 
low-carbon economy. You mentioned nuclear, you mentioned 
renewables, and the third thing you mentioned was carbon 
capture and sequestration, and I don't think we have spent any 
time specifically on that today as a priority, and I would like 
to explore that.
    Coming from North Dakota where we enjoy the lowest 
electricity prices in the country due to the low cost of coal 
and the fact that we burn it right there and generate 
electricity and the fact that we enjoy a good economy as a 
result of the very high price of oil, I want to talk about the 
Department's strategy in terms of investment in capturing 
carbon and using it and injecting it into oilfields for 
enhanced oil recovery. Your commitment to that, what do you see 
as that--in--as a possible future scientifically and in 
research and development in that arena?
    Secretary Moniz. Thank you. Actually, I would say that--in 
fact, I think two years ago when I was at MIT with the 
University of Texas at Austin we had a workshop specifically on 
CO<INF>2</INF> for enhanced oil recovery. Maybe for others not 
as familiar, I might just say that, today, it is not a widely 
known story that we are using today 60 million tons of CO<INF>2</INF> 
annually to produce 300,000 barrels of oil per day from 
enhanced oil recovery.
    And, you know, it is a little bit shaky, but an analysis 
done for the Department two years ago indicates there may be a 
factor of 10 still to be had. That would be three million 
barrels of oil per day. But to have enough CO<INF>2</INF>, we 
need to capture it from power plants or industrial facilities. 
Today, largely using the stimulus funds of several billion 
dollars went into the--I think we have now 6 major projects 
moving forward on carbon capture and storage, and I believe--I 
can check the exact numbers, but I believe four of those will 
use enhanced oil recovery.
    Mr. Cramer. Um-hum.
    Secretary Moniz. So, clearly, getting the economic value of 
the oil helps you with the cost of capturing the carbon.
    Mr. Cramer. Precisely. One of those projects is called the 
Plains CO<INF>2</INF> Reduction Partnership in North Dakota at 
the University of North Dakota----
    Secretary Moniz. Yes, head of one of the regional 
partnerships.
    Mr. Cramer. Yes, that is exactly correct.
    Secretary Moniz. Yes.
    Mr. Cramer. And so I guess I want to use the opportunity to 
encourage you to continue that investment there because we 
really--first of all, geologically, there are lots of 
opportunities obviously----
    Secretary Moniz. Um-hum.
    Mr. Cramer. And when you have eight billion or more barrels 
of recoverable oil at current technology like we have in North 
Dakota and an 800-year supply of coal that we would like to 
burn for a very long time and generate low-cost electricity, if 
we could find this opportunity to capture that CO<INF>2</INF>, 
which we know--understand is a challenge and yet we do it. We 
do it quite effectively up to 50 percent of it in our coal 
gasification facility at least. I would encourage that type of 
an investment where there is already proven--a proven cost-
benefit and, as you said, of the potential for much, much 
greater.
    One other area of----
    Secretary Moniz. Could I just interject?
    Mr. Cramer. Yes, please. Please do.
    Secretary Moniz. And of course the Great Plains plant you 
referred to was an old DOE investment.
    Mr. Cramer. It certainly was, and boy, what a history it 
has. Thank you.
    One other area I just want to pursue since we--since I have 
the time is that you have been quite specific about your plans 
for dealing with LNG export and approving applications for LNG 
ports on a case-by-case basis, which seems prudent. But 
realizing that there are a number of applications in front of 
you where the comment period has ended and some have been 
waiting for months, is there any chance of expediting some of 
that in a responsible way? Given the demand in the world and 
the fact that global markets are--you know, kind of present 
this window of opportunity for us as a country, could you just 
comment a little bit on that? I realize it is a little outside 
the scope, perhaps, of science----
    Secretary Moniz. Well, that is fundamentally my plan. Of 
course, the second license was granted shortly before I became 
Secretary. As I said in my confirmation process, I need a few 
weeks to--and I am still just three weeks--basically a few 
weeks to go over the process, look at the inputs, et cetera, 
not commissioning new studies or anything.
    I think, you know, we are getting kind of to the place 
where I think this kind of review--my personal review period is 
maturing and then I plan to go expeditiously as I have 
committed.
    I understand some of the frustrations and some of the 
market opportunities, and we also realize that even with a 
conditional license granted, of course, there is still a lot of 
work that companies have to do in terms of assembling the 
capital, getting the customers, getting the suppliers all lined 
up. So I want to move expeditiously. I have certainly committed 
to having strong review process this year.
    Mr. Cramer. Thank you for your access today and your 
willingness to be so frank with us. I appreciate it. Thank you. 
My time is obviously expired.
    Mrs. Lummis. I thank the gentleman and yield to the 
gentleman from Washington, Mr. Kilmer.
    Mr. Kilmer. Thank you, Madam Chair. And thank you, Mr. 
Secretary, for joining us today.
    The Administration recently announced its proposal to 
create a national network for manufacturing innovation meant to 
serve as regional hubs for accelerating the development of 
manufacturing new innovative technologies. The Department of 
Energy, through its Advanced Manufacturing Office, has played a 
direct role in supporting these innovative manufacturing 
initiatives.
    I have certainly found that when most people think about 
innovation, they tend to think of Mr. Swalwell's district or 
Silicon Valley, but even in more rural areas, including my neck 
of the woods on the Olympic Peninsula of Washington State, we 
have advanced composite materials manufacturers that are 
developing very high-end, high-quality materials that have 
enormous potential.
    I was hoping you could speak a little bit about what steps 
the Department is taking to ensure that fair consideration is 
given to innovation that is taking place in rural areas where 
the injection of key support could not only help support our 
long-term global competitiveness but could really revolutionize 
local economies?
    Secretary Moniz. Thank you. As you say, the Department is a 
participant along with other agencies in the Advanced 
Manufacturing Initiative, and had we partnered with DOD and I 
think a third agency in the 3-D Printing Manufacturing 
Initiative. And we have one out now in large bandgap 
semiconductors.
    I can certainly assure you that, first of all, proposals 
will certainly be evaluated fairly from rural areas or others; 
number two, that my emphasis on doing more with the States I 
think that lead to a very interesting dialogue about what we 
can do with--maybe to stimulate additional activity in rural 
places.
    Like I say, today, I would be delighted to have that 
dialogue, and if you have ideas as to how that might go 
forward, whether it is the Manufacturing Initiative or other 
initiatives, I would be delighted to have that conversation.
    Mr. Kilmer. Thank you for that. I sure appreciate that. And 
certainly, I have my office and a number of other Members 
would, I think, be keen to be part of that happening.
    Secretary Moniz. If that could be a group that we could get 
together, well, that would be great.
    Mr. Kilmer. Thank you for that.
    If I may ask also what role do you see for the national 
labs in that broader discussion of impact at the local level 
and local economies?
    Secretary Moniz. Well, okay. Let me answer one question you 
didn't ask and one you did ask.
    Mr. Kilmer. Sure.
    Secretary Moniz. The--first of all, the labs are connected 
to this Manufacturing Initiative, so, for example, in the 3-D 
printing, there is a pilot scale project at Oak Ridge and, of 
course, now we have the manufacturing facility in Ohio there.
    In terms of your question, I have spoken with the labs 
already, the lab directors. I mentioned earlier I met with them 
about--because we are going to be developing this Quadrennial 
Energy Review process with a much more state and regional 
focus, while our labs don't cover quite the entire country, I 
would like them to become centers of that regional outreach. So 
that is a process we are going to have to invent. It isn't 
really there now that well, but we have to do that. That is 
number one.
    Number two is when it comes to technology transfer from the 
laboratories, I will be honest; I think it is not at a level 
that we should expect. I think we need to do more. I believe 
part of that will also come by working with the States because 
I think it is the innovation ecosystem you need around the lab 
then to draw all those technologies out. So that is kind of in 
general terms the kind of vision I have at least for this.
    Mr. Kilmer. I think that is very true and certainly in my 
part of the world you would find a private sector that would be 
very interested in having stronger integration between the lab 
and private industry.
    Secretary Moniz. Yes, that would be great. Again, I would 
be--I would love to follow up on that.
    Mr. Kilmer. Thank you.
    Thank you, Madam Chair. I yield back.
    Mrs. Lummis. I thank the gentleman.
    Mr. Secretary, it is eight minutes past noon. Are you able 
to hang in there with us for a few more minutes?
    Secretary Moniz. A few more minutes, I am sure.
    Mrs. Lummis. Thank you very much.
    The gentleman from Texas has graciously yielded his place 
in the queue to the gentleman from Utah, Mr. Stewart.
    Mr. Stewart. Thank you, Madam Chairwoman.
    And thank you, Mr. Weber, for allowing me to jump in here.
    Mr. Secretary, thank you for being here. Once in a while, 
you will read someone's resume and you think, wow. That guy is 
a lot smarter than I am and----
    Secretary Moniz. Don't believe what you read.
    Mr. Stewart. Unlike climate change, this is a matter of 
fact, not speculation, and your resume is really quite 
impressive.
    I worked a little bit in the energy and environment sector. 
I am not an expert on it. I have never claimed to be, but I do 
know a little bit about it. And I think by far the most 
important story that we see in the energy world right now, it 
is not wind, it is not solar, it is not biomass; it is really 
hydraulic fracking. That has changed the energy world, and 
frankly, it has changed the world in very significant ways.
    It has reshaped the energy map, and as a former military 
officer--and I can tell you that from a strategic point of 
view, it has changed the way that I think we view many of the 
challenges that we face from not just the energy sector but 
also from a national security point of view.
    Secretary Moniz. Um-hum.
    Mr. Stewart. You know, I just want to comment that the 
United States will surpass Saudi Arabia and also Russia to 
become the top global oil producer in the next decade. I think 
that is great news for us. But, Mr. Secretary, by DOE's own 
report, very, very little of this increased production has 
happened on Federal lands.
    I come from Utah. There are some counties in my district 
that are 97 percent controlled by the Federal Government, and 
many of these counties have enormous natural resources. They 
have resources there that we could be taking advantage of but 
they unfortunately don't lie on state lands or private lands; 
they lay underneath Federal lands.
    And I am wondering would you commit to us that DOE would be 
willing to support greater access to Federal lands to take 
advantage of some of these natural resources?
    Secretary Moniz. Well, sir, I think, you know, first of 
all, of course, I actually said our production overall is going 
up dramatically. With regard to the Federal lands, that is 
clearly something for the Department of the Interior and not 
something that we have--
    Mr. Stewart. Right.
    Secretary Moniz. --any direct engagement with.
    Mr. Stewart. I understand that but I am just wondering, you 
know, with your background and with your expertise, would you 
say that that was--that would be an appropriate response for us 
to try to encourage Federal Government to make more available 
on these Federal lands?
    Secretary Moniz. Well, I think, again, the President 
supports all-of-the-above, and I think the issue is to see that 
we continue to grow our domestic production.
    Mr. Stewart. Okay. And thank you for that. And I hope the 
President takes that approach as well.
    And then one other comment very quickly knowing that you 
are extending your time, and this is not something that 
involved you directly knowing that you are, of course, new in 
your position and, by the way, have enjoyed, I think, broad 
bipartisan support. And your--the vote that you had for your 
nomination, I think, is an indicator of that.
    But one thing that I think troubled several of us was this 
idea of the crony capitalism. If you go back and look over the 
last four years, you know the Solyndras of the world. And if 
you look at the very, very high percentage of those people, 
those companies that had renewable energy companies were backed 
by the Energy Department, and by some reports as much as 80 
percent of them were run by or primarily owned by Obama 
financial backers.
    And I am just wondering if you would respond to that and 
tell me if you think that is a great idea, which I am supposing 
you don't and make a commitment once again that there would be 
not a political influence that would be played into some of 
these financial backings that the Department takes----
    Secretary Moniz. Well, first of all, I think I want to 
start by referring back to the Allison Report that suggested 
that the program in fact has been quite well run. And I have to 
say in my three weeks I have been impressed with the quality of 
the people recruited, their financial knowledge in terms of the 
loan program.
    Clearly, we have to evaluate the loans, loan grants under 
merits. Of course, right now, much of the job is really 
stewarding the loans that have been made.
    As I noted earlier, there are still some outstanding issues 
like the loan commitment made for the nuclear power plants in 
Georgia and a possible additional FOA that we might do in 
fossil that we are considering.
    Mr. Stewart. I think you and I can agree, though, that if 
it is true in the previous four years that 80 percent of these 
companies had some type of financial ties to the President that 
that would be an inappropriate measuring stick to whether they 
would receive DOE funds?
    Secretary Moniz. Well, the motivation for the award clearly 
has to be on the merits--
    Mr. Stewart. On the merits, exactly.
    Secretary Moniz. --of the budget.
    Mr. Stewart. Thank you.
    Secretary Moniz. Right.
    Mr. Stewart. Thank you for that because that is obviously 
very true.
    And I am going to cede the last 8 seconds of my time. Thank 
you, Madam Chairwoman.
    Secretary Moniz. Thank you.
    Mrs. Lummis. The gentleman from Massachusetts thanks you 
kindly and we now turn to him.
    Mr. Kennedy. Thank you, Madam Chair.
    And, Mr. Secretary, it is a pleasure to see you. Thank you 
for your patience. Thank you for----
    Secretary Moniz. Your constituent.
    Mr. Kennedy. Yes, I know. I am thrilled about that. I hope 
you are, too. But, nevertheless, we have a bit of a similar 
background. We both went to Stanford. I hesitate to compare my 
physics report card with yours, but nevertheless, glad to see 
you where you sit and glad that I am here as well.
    So three points that I just wanted to--or two questions and 
really one point; I will start with the point first.
    Intrigued a little bit, Mr. Secretary, by your response to 
one of my colleague's questions earlier about STEM and the 
importance of STEM education really for that foundation going 
forward for that next generation of engineers and that skill 
set that we need for whatever those jobs of the future are. I 
am very intrigued by that training program.
    The district that I represent, you are very familiar with, 
spanned the spectrum in terms of economic outlook. 
Massachusetts has struggled a bit getting the low-skilled to 
middle-skilled while we have done well with the high--the 
middle-skilled to the high-skilled. So I would be thrilled to 
learn more about and support any of those efforts that you have 
for a mentorship or trainee program.
    Secretary Moniz. Great.
    Mr. Kennedy. So please just keep us in mind----
    Secretary Moniz. Um-hum.
    Mr. Kennedy. --as that develops.
    Now, for the two questions.
    First, Mr. Secretary, MIT, as you mentioned and you spoke 
about this briefly, it is home to one of the world's foremost 
plasma fusion energy science programs, the C-Mod facility, 
which I had the pleasure of touring a couple of months ago. 
Ultimately, the Administration's Fiscal Year 2014 budget 
request terminates that facility and while proposing an overall 
increase to the Fiscal Year 2013 enacted levels. The increase 
in funding request will support the U.S. contribution to the 
ITER international fusion project.
    I know there are sensitivities around this given your 
former position at MIT, but I just wanted to ask generally your 
thoughts about the importance of making investments in fusion 
energy and what that means for that all-of-the-above energy 
outlook that you talked about going forward if you can.
    Secretary Moniz. Thank you. Well, okay. Respectfully, I 
cannot answer anything with regard to specifics of the program.
    Mr. Kennedy. Understood.
    Secretary Moniz. General counsel has recused me from that.
    In general, in terms of fusion, I think fusion is--
actually, I should say fusion and plasma science I think are an 
important area for continued DOE support. Plasma science really 
is another kind of phase of matter and then fusion has a long-
term--and it is still long-term possibility as an attractive 
energy source. So I support the general idea of continuing 
fusion research.
    Mr. Kennedy. And again, Mr. Secretary, keeping it general, 
as you said, those long-term investments, the--we still--just 
because it is a long-term horizon doesn't mean that we don't 
make the investment. Would you agree?
    Secretary Moniz. No, we have to. If you don't make it 
today, we won't have it in the future.
    Mr. Kennedy. I would agree with you.
    And second, building off a little bit of what you said, 
sir, you talked quite a bit about--and there has been numerous 
questions today about that all-of-the-above energy strategy. 
The Fiscal Year 2014 administration budget includes 2.78 
billion for the Office of Energy Efficiency and Renewable 
Energy, which proposes a number of increases to its programs 
across the board.
    You also mentioned in your testimony, sir, the ``Race to 
the Top'' initiative as part of your larger focus on national 
energy policy.
    You touched upon this a little bit earlier, sir, but if 
there are parts of our across-the-board energy portfolio that 
are not yet cost-competitive because of barriers to 
technological advancement, how would you propose going forward 
to lower those barriers to make the technological advances to 
make it cost-effective?
    Secretary Moniz. Well, I think we need a portfolio of 
instruments. At the foundation is the basic R&D, which gives 
us, you know, the new possibilities.
    But then, of course, we have something like ARPA-E, which 
takes promising but still high-risk technologies and moves them 
hopefully to the place where they become market-attractive for 
investors. And I think we are seeing a lot of success now 
developing there and that the program is still new. I mean it 
is about 3-1/2 years old, well, going on 4, I guess. So that is 
very, very encouraging.
    We also have them in programs and the applied energy 
programs in selected areas for large-scale demonstrations. The 
gentleman from North Dakota, for example, mentioned carbon 
capture and sequestration. That is a place where demonstrating 
the viability of large-scale storage is just not credible 
without DOE, without government investment.
    And then when it comes to deploying or helping the 
deployment, then we have things like the loan programs, for 
example, where--by the way, I didn't get the chance to say this 
earlier so I will say it now. The fact is that this loan 
portfolio, even if we project with uncertainty on some of the 
remaining loans going forward, we are talking about no more 
than ten percent loss against the congressionally approved loan 
loss reserve. That is a pretty good performing portfolio, not 
to mention things like Tesla paying back a half-a-billion 
dollars nine years earlier, et cetera, et cetera.
    And by the way, Tesla, next year, their announced plan is 
they are going to become an exporter of vehicles now next year. 
So that is a great story.
    But also, the world largest concentrated solar plant in the 
California desert just had a ceremony a few weeks ago.
    So I guess our view is that we are moving inexorably, as we 
have for a century, towards a lower-carbon future, and if we 
want to sit around and not have those technologies developed 
here, well, we are going to be buyers and not sellers. I 
believe that we still are the strongest innovation engine. It 
is a question now of capturing that innovation in our 
marketplace.
    Mr. Kennedy. Thank you, Mr. Secretary. I yield back. Thank 
you for the time.
    Mrs. Lummis. I thank the gentleman and yield to the Vice 
Chair of our Energy Subcommittee, the gentleman from Texas, Mr. 
Weber.
    Mr. Weber. Thank you, Madam Chair. They have obviously 
saved the best for last.
    So I am from Texas, the Keystone--the vaunted XL Keystone 
pipeline would terminate in my district, Mr. Secretary, so we 
will have a little bit of a discussion about that.
    Candidate Obama running for president made the statement 
that under his energy plan, electricity prices would, of 
necessity, skyrocket. Do you remember that, ever seen that 
video?
    Secretary Moniz. No, I did not.
    Mr. Weber. Google it; it is out there.
    Secretary Moniz. Okay.
    Mr. Weber. So my question to you is are you doing 
everything you can to make electricity prices higher?
    Secretary Moniz. Definitely not. As I have said, cost 
reduction is my principal goal of innovation.
    Mr. Weber. So you are not following the Commander-in-
Chief's edict, then, that electricity prices need to be higher? 
So you don't share that vein of thought apparently.
    Secretary Moniz. I think we need to have energy costs as 
affordable as possible.
    Mr. Weber. The things that make America great are the 
things that America makes, and we need a low, stable energy 
supply, a very reliable one, and I think we have got one. And 
doing anything to upset that apple cart would obviously be bad 
for the economy, bad for national security.
    I will move on. Politico just reported that Representative 
Waxman announced in the Energy and Commerce hearing on fossil 
fuel export issues that climate change should be a key factor 
in considering LNG export applications. I have two plants LNG 
applications in my district. Is the Department of Energy 
considering climate change in its LNG applications?
    Secretary Moniz. As I said earlier, I am still in the 
process of getting up to speed, and soon we will be evaluating 
the dockets. Clearly, the issue is public interest criterion 
and a set of factors coming in there, environment, economy, 
security, all of those----
    Mr. Weber. That is a great statement, public interest 
should be considered. So how would you weight climate change 
considerations against what I would call economic 
considerations or, to use yours, public interest? How would you 
weight those going forward?
    Secretary Moniz. I think that is something that we will 
have to talk about in our order when we issue an order for the 
license applications.
    Mr. Weber. Have you had these kinds of discussions with 
climate change with the White House?
    Secretary Moniz. On the LNG export issue?
    Mr. Weber. Just on climate change in general?
    Secretary Moniz. Oh, yes, climate change in general, 
certainly.
    Mr. Weber. How many times--how many trips would you say you 
have made to the White House?
    Secretary Moniz. You mean in the last few weeks?
    Mr. Weber. Sure, in the last few weeks, last year. Is it 2 
is it 22?
    Secretary Moniz. Three or four times I--yes.
    Mr. Weber. Three or four times, okay. Well, kind of given 
the sensitive nature of some of the news reports that have been 
out lately with some of the revelations, of course, let me just 
say that, you know, the President said his Administration would 
be the most transparent administration in history; that was his 
promise, and it seems like it is getting more and more 
transparent and it is not very pretty. I want to hold the 
Department of Energy to a higher standard. Some of the 
discussion has been about the Solyndras in the days behind us, 
and I know you are going forward as the new Secretary. Are you 
sensitive to the fact that that agency--DOE I am talking about 
specificly--might be used indeed to put pressure on political 
enemies? Are you sensitive to that fact? In other words, that 
none of the policies in the DOE would give favoritism toward 
some of the cronyism that was mentioned here earlier. Do you 
have a--have you had that discussion with your staff? Do you 
have a plan in place to make sure it doesn't happen?
    Secretary Moniz. I--first of all, without just talking 
about the past, going forward----
    Mr. Weber. Um-hum.
    Secretary Moniz. --me--I make it very clear we want to be 
A) as transparent as possible and as completely open and fair 
and evaluating everything on the merits.
    Mr. Weber. Well, the last thing we need is--there are so 
many agencies and you can name them--NSA, IRS--you can go right 
down the list that have given the public--American public such 
a bad taste. The last thing we need is the Department of Energy 
or the EPA which already, I will have to tell you, doesn't have 
that sterling of a reputation, at least back in my district 
because they seem to hamper things more than they help. The 
last thing we need is that kind of reputation to be further 
promulgated in your agency, so I would charge you going forward 
that you make sure it doesn't happen.
    Let me switch gears. I am running out of time. You said in 
some of your comments earlier that you think gas has--and I 
am--this is probably paraphrasing. You said gas has 
revolutionized the energy industry and should be part of the 
solution going forward, natural gas we are talking about.
    Secretary Moniz. Absolutely, um-hum.
    Mr. Weber. We have a unique opportunity in the history of 
the world for America to take the lead, as you heard earlier 
from one of my colleagues. Are you committed to doing 
everything you can to get those--that permit process moving 
forward, especially LNG, natural gas, and making it expeditious 
so that we can maintain our competitive edge so that we can 
have that public interest in mind that you yourself talked 
about?
    Secretary Moniz. Well, again, to clarify, I mean we are not 
engaged in permitting in terms of production or exploration but 
in terms of LNG exports certainly. And I have said repeatedly 
and I intend to be expeditious in going through those cases.
    Mr. Weber. Are you in favor of allowing the Keystone 
pipeline to come to the Gulf of Mexico?
    Secretary Moniz. That is an issue for the Department of 
State.
    Mr. Weber. You haven't looked at it at all?
    Secretary Moniz. It is not in----
    Mr. Weber. You have had no discussions with the President 
or the White House on it?
    Secretary Moniz. No, I--it is not a responsibility of mine. 
I have not discussed it.
    Mr. Weber. Okay. Well, I was just curious----
    Secretary Moniz. Yes.
    Mr. Weber. --because I want you to do me a favor. When you 
leave here, I want you to go tell him that we want it in Texas.
    Secretary Moniz. Okay. But you already have the bottom 
half, right?
    Mr. Weber. Madam Chairman, I yield back.
    Mrs. Lummis. I thank the gentleman. And I thank the 
Secretary for his enormous patience today.
    The Chair yields to herself----
    Secretary Moniz. Okay.
    Mrs. Lummis. --for the final round of questions. And my 
questions are going to revolve around uranium, Mr. Secretary. 
First of all, does nuclear power add to CO<INF>2</INF> 
emissions?
    Secretary Moniz. It is essentially carbon-free, right. Um-
hum.
    Mrs. Lummis. Thank you. I want to visit with you about what 
has been happening with regard to the domestic uranium 
industry. Sometime ago a ten percent cap was negotiated so that 
DOE would only transfer, sell, or barter their uranium 
stockpile at a rate below ten percent of current domestic 
uranium demand. And that agreement was abrogated and the price 
of uranium fell through the floor. And my State, which produces 
a great deal of uranium--albeit domestic supply only supplies 
ten percent of our uranium for our nuclear power needs--was 
hurt badly, badly by the DOE's decision to abrogate the ten 
percent cap.
    So I apologize that your predecessor left you holding the 
bag, but I must ask you now that you are in charge, when does 
the DOE plan to comply with the law and submit a new management 
plan?
    Secretary Moniz. We are working on that very actively, and 
I think we can have a plan ready to bring forward fairly soon.
    Mrs. Lummis. Thank you, Mr. Secretary.
    Secretary Moniz. Um-hum.
    Mrs. Lummis. You know, the DOE has the authority, the power 
to make or break uranium production in this country because of 
prices and their ability to dump excess product on the market 
and destroy prices here, thereby making our country actually 
more reliant on foreign providers of uranium. So I strongly 
encourage you to come and visit Wyoming----
    Secretary Moniz. Um-hum.
    Mrs. Lummis. --and our uranium industry to help you better 
understand the dramatic direct impact that DOE has on our 
uranium industry.
    My next question is about USEC. Over the last 18 months, 
Dr. Moniz, the taxpayers have been asked to directly subsidize 
the U.S. Enrichment Corporation to the tune of over $1 billion 
in cash for uranium and other incentives. I want to understand 
how big this hook is that the taxpayers are hanging on. 
Specifically, is it DOE or is it USEC who is financially 
obligated to safely decommission the enrichment facility in 
Paducah, Kentucky, and hand it over to DOE? And how much do you 
anticipate that costing?
    Secretary Moniz. I cannot give you an exact cost estimate 
right now, but the USEC will have some responsibilities for the 
turnover of the plant, probably in some stages. That is still 
to be worked out in detail, but then the Department will go 
into cleanup, preparatory to a D&D, decommissioning. And then 
the issue, which is not dissimilar to that in Piketon, is what 
can we do with those communities to help provide a new 
industrial activity that might provide an additional future at 
those sites. And for Paducah it is well known we have--we at 
the Department did ask for expressions of interest in terms of 
what might be done with the site, and that is something we will 
have to evaluate this year.
    Mrs. Lummis. Mr. Secretary, what is your opinion about the 
efficacy of the technology of the American Centrifuge Project?
    Secretary Moniz. Well, that is something that we will need 
to judge. The intent is that the demonstration of the cascade 
will--should, assuming funding is there--should end at the end 
of this year. That is the schedule, and then we have to see 
whether that looks to be a promising commercial technology and 
then will come some decisions to be made.
    What is the case, of course, I think as you know is the--
there is a sensitivity that currently we have no American 
origin uranium enrichment technology, and consequently, if and 
when we need enriched uranium for military purposes, we will 
not have the option.
    In fact, if I may comment--maybe a last comment going back 
to the uranium market, again, we have this report which is, I 
think, coming along and will be available pretty soon, clearly, 
I understand completely the issue of balancing the various 
equities, uranium producers on the one hand, national security 
requirements on the other. So, for example, if you take 
Paducah, then a year ago or just--or over a year ago of course 
there was uranium used at Paducah for an extra year of 
operation. That was for a well-defined national security 
purpose to make a tritium reserve for our weapons, whereas the 
recent proposal for an extension was declined because there was 
no national security purpose.
    Mrs. Lummis. Oh, thank you, Dr. Moniz. And there is 
considerable interest on this Committee on both sides of the 
aisle on small modular nuclear reactor technology and whether 
that has promise. I hope that our Subcommittee on Energy will 
have an opportunity to visit with you informally about----
    Secretary Moniz. Um-hum.
    Mrs. Lummis. --your understanding of the status of that 
technology and the viability of that technology going forward.
    Secretary Moniz. Um-hum.
    Mrs. Lummis. And we would invite you into those discussions 
at your convenience.
    Secretary Moniz. Great.
    Mrs. Lummis. I want to thank you so much for your valuable 
testimony, and I want to thank the Members for their questions.
    The Members of the Committee may have additional questions 
for you, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments and written questions for Members.
    I would like now to offer Ranking Member Johnson, who has 
been so patient, her opportunity for closing remarks. Do you 
wish to comment?
    Ms. Johnson. Well, thank you. I just want to thank the 
Secretary again for coming----
    Secretary Moniz. Thank you.
    Ms. Johnson. --and look forward to working with you. And 
thanks to you.
    Secretary Moniz. Thank you.
    Mrs. Lummis. I thank the Ranking Member. I want to 
particularly thank you, Secretary Moniz, for joining us today. 
As you heard from numerous Members of this Committee, we have 
high hopes for a very positive working relationship with you 
going forward, and we look forward to that with a very robust 
scientific future for our country.
    And with that, the----
    Secretary Moniz. I do as well even if we have little 
arguments sometimes. But I look forward to discussion really.
    Mrs. Lummis. And the operative word is little----
    Secretary Moniz. Yes.
    Mrs. Lummis. --because regardless of whether one believes 
in the role of mankind in increasing the effects of climate 
change, I think there is general agreement that the climates 
are changing. The amazing geology of my own----
    Secretary Moniz. Um-hum.
    Mrs. Lummis. --State of Wyoming bears witness to climate 
change over eons of time. And if it has been exacerbated by 
mankind or not, we all agree on this Committee that the 
importance of giving to our children and grandchildren the best 
world that we can is in everyone's best interest.
    So with that, the witness is excused and this hearing is 
adjourned.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Secretary Moniz

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
